Semiamnua__epo_
Office
     of In_;pec_o;
                Ge_e_
Uo$°DepaHmeR_ _ L_bG;
U.S. Oepartment of Labor
William E. Brock, Secretary
Office of Inspector General
J. Brian Hyland, Inspector General

April 1, 1987 - September 30, 1987
                                TABLE     OF    CONTE_S


Inspector        General's     Message         .............           i

Overview        ........................                             iii

Office     of    Audit      ....................                       1

Office     of    Investigations      ...............                  45

Office     of    Labor   Racketeering          .............          55

Office of Resource   Management   and
  Legislative  Assessment   ...............                           67

Complaint        Handling     Activities         ............         73

Money    Owed     to the     Department          ............         75

Appendix        .......................                               77

    Selected   Statistics     ...............                         79
    Summary of Audit Activity       of DOL Programs       ....        80
    Summary of Audit Activity       of ETA Programs       ....        81
    Summary of Audits     Performed   Under the
       Single Audit Act ..............                                82
    Audits   by Non-Federal    Auditors   .....        o ....         83
    Summary of Audit Resolution       Activity    .......             85
    Status of Audit Resolution       Actions   on
       Audits Unresolved    Over Six Months       .......             86
    Unresolved    Audits Over Six Months Precluded
       From Resolution     ................                          87
    List of Final Audit Reports       Issued   ........              88
    Abbreviations     Key  ................                          94
    U.S. Department     of Labor Fact Sheets Highlights          o   97
                    _NSPECTOR      GENERAL      IS _SSAGB


This is the eighteenth   Semiannual  Report of the UoSo
Department  of Labor's  Office of Inspector   General  (OIG)o                     It
is being issued in accordance    with the provisions  of the
Inspector  General  Act of 1978 (P.Lo 95-452)°

I am pleased    to include  in this report the discussion       of two
activities   that I believe    are particularly   noteworthy:    the
preparation    of audited  financial   statements  on the
Department   and risk analysis    reviews of several    of our major
agencies   using GAO's Control    and Risk Evaluation     (CARE)
audit methodology°

We can all take special       pride in the fact that the
Department    of Labor is the first agency        to have prepared
these audited     financial   statements°    These audited
statements,    together   with the risk analysis      reviews,   provide
the Department     with important    alternatives    in evaluating    its
operations    and are major steps toward achieving         Secretary
Brock's   goal to enhance     the effectiveness     of financial
management    systems°

While reflecting     on some of our significant     contributions   to
improve   the management     and operation  of the Department's
programs,    I also look forward to our ongoing      efforts   to
introduce   to the administration      of Federal  programs   some of
the newer technology       that has been developed   for application
in the private     sector°

In this regard, we continue       to have an important      leadership
role within the Inspector       General   community   to utilize    smart
card technology    to more efficiently      deliver   Federal   benefit
programs   while reducing    administrative     costs, errors in
processing    and vulnerability     to fraud and abuse°

For the next reporting      period,       the    OIG   will   continue     to
press forward:

    preparing  routine     annual     financial        statements    for    all   of
    the agencies,

    working   with GAO and the Department     to resolve   complex
    threshold    issues related   to the application   of generally
    accepted   accounting   principles  to Federal   accounting    and
    reporting,    and

    consolidating     statements      for    the   Department°




                                    -i-
I know I express      the sentiment     of the entire Department    of
Labor in wishing      Secretary    Brock much success    in his future
endeavors°     The SecretaryWs      supports  his leadership   and
direction    have been instrumental       in achieving   many of the
Department's     notable   accomplishments°      His tenure  has been
marked by real and sustained         progress  and he has effectively
defined   the challenges      facing the Department    and the
nationVs   work force for the coming decades°

I have appreciated     his strong interest   and capabilities    in
implementing   the many OIG recommendations_      and I look
forward   to establishing   an effective   and cooperative   working
relationship   with the new management     team°

Lastly_  I want to cite the excellent     performance  of all of
the very dedicated   OIG employees   whose hard work has
produced  the accomplishments   contained    in this report°  We
all share in the success of these efforts°




Inspector   General




                                 -ii-
                                    OVERVI_


This semiannual       report covers the activities           of the
Department    of LaborUs     Office of Inspector         General    for the
period April 1 through         September    30, 1987o      During    this
period,   audit initiatives        resulted    in numerous     economy    and
efficiency    findings     and recommendations        regarding    Agency
operations:    the OIG issued 120 audit reports on program
activities,     grants and contracts°          Investigative      results
continued    to show positive       progress    during this reporting
period:    633 investigations        were opened,      599 cases were
closed,   and there were 582 indictments            and 427 successful
prosecutions°      The Office     of Labor Racketeering          (OLR) has
expanded   its focus from the more traditional              organized     crime
elements   to investigations        of corruption      in employee     benefit
plans by accountants,        attorneys,     bankers    and other fund
administrators      and advisors°       This area remains        its highest
investigative     priority°      During the six-month         reporting
period,   OLR investigations        resulted    in 87 indictments       and 61
convictions,     with additional      predicate     established      for the
potential    civil recovery      of approximately        $18 million°


PENSION    AMD   _ELFARE     BENEFITS     ADMINISTRATION      (P_TBA)

e   _he   Role   of   the   Independent      Public    Accountant   in _RISA

During this semiannual        reporting    period the OIG completed            a
survey to review PWBA's        use of Independent       Public
Accountants    g (IPAs') audit reports of pension           and welfare
plans in ERISA enforcement.           ERISA covers 4o5 million
welfare   plans and 915,000       pension    plans with $1.4 trillion
in assets°      The retirement      security    and welfare    of many
American   workers    depends    upon the financial      integrity    of
these plans°      A draft report      issued to the agency       found
that PWBA makes little        use of annual      IPA audits to direct
enforcement     efforts   toward   plans requiring      further
investigation.       Generally,     IPA reports were of little use
because   they frequently      did not identify      violations     later
found by investigators;        did not disclose      information     on
known violations;       did not meet generally       accepted    auditing
standards    and were 2 years old when received           by PWBAo
(See page 2.)

e   Xnfo_mation       Resources    Management      in PWBA

PWBA's Information  Resources             Management     was also reviewed
because of concerns  over the             capability     of the agency"s




                                        -iii-
major ADP system to contribute     to the enforcement   of ERISA's
fiduciary   standards  and the agency's  current  efforts  to
redesign  its ERISA Automated   Data Base and Access    System,  at
an estimated    cost of over $i00 million°    (See page 5°)

o   _enslen       Plan    F_aud

With the passage    of the Comprehensive    Crime Control     Act of
1984 amendments_    the OIG began conducting      investigations   of
single employer   pension   plans_ which comprise      about 75
percent   of the pension   plans in existence°      While these
cases have proven to be both complicated        and labor
intensives   the OIG has begun to achieve      some indictments    and
convictions   for these criminal   violations°       (See page 50°)


E_LOY_            STANDARDS       AD_XNISTRATXON      (ESA)

e   _u_      b_    Medical      P_ovide_s     a_d   Claimants

The OIG has developed        several   initiatives    to detect    and
control   medical    provider    fraud and fraud by claimants        who
fail to report earned        income°    A joint OIG and Postal
Inspection    Service    investigation     into fraudulent     billing
practices    by medical     providers   resulted   in indictments
against   four physicians       in the Houston    area°    Another   case
resulted    in criminal     complaints   being filed against       three
California    pharmacists      for fraudulently    billing    the
Department    for name-brand      drugs while actually       substituting
generic   equivalents°       The OIG also sought major        recoveries
from workers     compensation     claimants   who failed to report
earned   income°     These ex-employees      defraud   the Government     of
sizable   amounts    since they often can receive         benefits   for
many years before       detection°     (See ]page 51.)


_LOY_Z_           AND    TRAXNING    AD_XNXS_RATXON       (_fA)

e   _ue_te    Rico       C_TA   Close   Out

As part of OIG_s efforts     to assist ETA in closing       out Puerto
RicoVs CETA programs    a report was issued on a follow-up
review of all grants awarded     to Puerto RicoUs      Balance   of
State program°    We identified    $78ol million     in questioned
costs because   of deficiencies    in the financial     management
system and $562_186    in unresolved    subrecipient    costs
recommended   for disallowance°      (See page 13o)




                                            -iv-
o   Federal    Share    of Unemploymen_      Compensatioa

Between   February   1984 and December    1986s the OIG audited      the
Federal   share of the unemployment      compensation    (UC) program
in 40 states as well as Puerto Rico and the District            of
Columbia°     Individual   reports were issued to each auditeeo
The reviews    covered   $10o8 billion   of Federal    UC benefits   and
recommended    disallowing    a net total of $226°4 million°       A
report summarizing     the results of these 42 audits was
forwarded   to ETA during this reporting       period°
(See page 39°)

o   Unemployment       Insurance   Program    Fraud

As a result of its continuing       investigation  into fictitious
employer   and employee    schemes,  11 more individuals   from the
Boston area were indicted       in a scheme that has resulted    in
unemployment    insurance   losses of about $750,000°     In these
schemes,   dummy companies    are often established    and the
alleged   employees   then file for Unemployment    Insurance   (UI)
compensation°

Additionally,    our on-going   approach  of clustering   several
similar   cases of fraud by UI beneficiaries      for simultaneous
prosecution    has resulted   in the conviction   of a number of
individuals°      (See page 48°)

In this regards   the OIG has completed      the developments
production  and distribution    of a videotape     depicting  UI
system weaknesses    and suggested   countermeasures     that can
reduce vulnerability    to fictitious    employee/employer    fraud
schemes°   (See page 49°)


DRPART_ENTAL      _AGE_T

0   PEocuEement

The OIG reviewed     contract   modifications    awarded   by the
Solicitor's    Office and the Department       of Justice   which
appeared   to conflict    with Federal    appropriation    laws and
procurement    regulations.     The modifications     extended   a
4-month,    $395,000   sole source contract     into a 7-year,     $9
million   contract°     The contract   has been terminated      and
improperly    obligated    funds deobligatedo      (See page 20°)




                                     -V-
o    Financial      Management

During   this reporting     period,    OIG presented      the first
audited   financial    statements    for two major DOL program
agencies    -- ETA and OSHA -- and the first compiled             DOL
consolidated    financial     statements°      This represents     a
substantial    step toward     audited    financial    statements    for the
Department°     We also compiled       financial     statements   for ESA
and obtained    an independent      financial     statement   audit of
OIGo    Each financial     statement    audit and compilation        project
was coordinated     with a separate       review of financial
management    systems   using GAO's Controls        and Risk Evaluation
(CARE) audit methodology°

The OIG has worked closely       with departmental     management  and
GAO throughout     these projects°     We commend   the Assistant
Secretary    for Administration    and Management,     the
Department's    Comptroller   and key program     officials   for their
active and cooperative      participation°

Audited   financial    statements    for tlhe Department    are expected
to be presented     during the next reporting       period,    with
routine annual    financial     statement  audits planned
thereafter°    (See page 26°)


OFFXCE     OF   LABOR   RACKETEERING       (OLR)

O _edtech       Indictments      Include   Govecn_ent   Officials

OLR is coordinating       the various    federal   investigations    for
the UoSo Attorney's       Office  in the Southern      District   of New
York of Wedtech,      which have resulted       in a 58-count
indictment    against   a current    UoSo Congressman,      a former SBA
Regional   Administrator      and various    corporate   or former
public   officials    associated   with Wedtecho       (See page 64°)

o   Law   _nfo_cement     Authority

During this reporting      period,   the U.So Department       of Justice
appointed    all qualified    OLR Special    Agents   as Special    Deputy
UoSo Marshals     on a trial basis for i year°          Such authority
has added demonstrably       to the effectiveness       and efficiency
of OLR field operations       by enabling    agents to use firearms,
make arrests     and execute   search warrants°       While this
temporary    authority   has proved    beneficial,     it does not
adequately    meet OLR's need for permanent         law enforcement
powers necessary     to ensure   success    and credibility°      In this
regard,   the Inspector    General   will continue      to advocate




                                       -vi-
legislation   that would afford full statutory   law enforcement
authority   for OLR in its own right.   (See pages 55 and 67°)

o Labor     Racketeering         Seminar

To assist Federal,     state and local agencies      in acquiring
diagnostic   skills in labor racketeering,        the OIG has
developed   and begun offering     a 2-day training    seminar   that
incorporates    relevant   statutes,   investigative   strategies    and
techniques   and case studies.       (See page 55.)


OTHER     ACTIVITIES

O   Legislative        Proposals

During this six-month      period,   the OIG made a number of
legislative    proposals   to implement    the recommendations       of
the President's     Commission   on Organized    Crime,    authorize
full law enforcement      authority   for OLR special      agents and
make audit reports prepared        by IPAs under ERISA subject        to
the provisions     of the Single Audit Act°       Of the 473
legislative   and regulatory     items reviewed     during this
reporting   period,    the OIG expressed    concern    about, and/or
support   for, several    proposed   measures.   (See page 67.)

O   President's        Council     on   Integrity   and   Efficiency   (PCIE)

The OIG has assumed     a leadership     role in promoting the use
of technological     innovations    such as smart cards for
delivering   Federal   benefit   programs   while reducing fraud and
errors.    (See page 72.)

O   ADP    Initiative

OIG computer    specialists   designed,    developed    and implemented
an extremely    innovative   ADP security     system.    Since July,
the OIG has responded      to about 80 requests      worldwide   for the
software   package,   including   requests    from Parliaments    in
Australia,   Canada   and New Zealand.       (See pages 71.)




                                           -vii-
                              OFFICE        OF AUDIT


During this      reporting  period,   139 audits of program
activities,      grants  and contracts   were issued°   Of these:

     --     18   were performed   by OIG auditors,
     --     22   by CPA auditors   under OIG contractp
     --     29   by state and local government     auditors,
     --     66   by CPA firms hired by grantees,      and
     --      4   by other Federal   audit agencies.

The 139 audit reports       issued during this period       consisted    of
9 program   results   audits,    14 financial    and compliance
audits,   8 economy   and efficiency     audits,    ii surveys,   3
research   and issue identification       audits,    3 special   purpose
reviews,   6 indirect    cost audits,    and 85 audits conducted
under the provisions      of the Single Audit Act or OMB Circular
A-102, Attachment     Po   The Department     of Labor was the
cognizant   agency  for 53 of the Single Audit or Attachment             P
audits.

The Office of Audit section       of this semiannual       report is
divided   into three chapters.      Chapter    1 contains     information
on audit activities     in the Department's       programs.     Chapter   2
highlights    our progress   in evaluating     the Department's
system of financial     management    (page 26)°      Audit resolution
during the period     is covered   in Chapter     3 (page 39)0      Money
owed the Department     is separately     reported    later in this
report followed    by the Appendix     which contains      tables on
audit activity,    including   audit reports      issued and resolved.

PENSION    AND   WELFARE   BENEFITS     ADMINISTRATIO_

The Pension    and Welfare    Benefits   Administration      (PWBA)
carries   out the Department's      responsibilities     under Title I
of the Employee     Retirement    Income Security     Act (ERISA) of
1974, which includes      regulatory,    enforcements     research,
reporting   and public    disclosure    activities.     Currently,
ERISA covers 4.5 million       welfare   plans and 915,000      pension
plans with $1.4 trillion       in assets.     Thus, the retirement
security   and welfare    of a large number of American         workers
depend   on the financial     integrity   of these plans°       For
Fiscal Year 1987, PWBA's budget was $33 million             and the
approved   staffing   level was 492.

During    this reporting  period,   we issued draft      reports on
PWBA's    use of Independent   Public Accountants"       audit reports




                                      -I-
in ERISA enforcement           and   PWBA's      information         resources
management°

PMBA Should Expand the Role of the Independent
Public Accountant  in ERISA Enforcement

To protect    participants'     assets and rights,      ERISA requires
that plan administrators       engage  an Independent       Public
Accountant    (IPA) on behalf     of all plan participants        to audit
annually   those pension     and welfare    plans covering      100 or
more participants°       IPA audits are important        because,    of the
5°3 million    plans,   about 100,000    plans have 100 or more
participants    and these larger plans        (subject to annual       IPA
audits)   hold about    $1o2 trillion,    or 88 percent      of the $1o4
trillion   in total assets covered       by ERISAo     In contrast,
PWBA has only about 200 investigators           directly   involved     in
the enforcement     of ERISA, and these investigators          are able
to investigate     only about 1,700 of the 5°3 million           plans
each year°

Our audit objective   was to determine                whether        IPA audit
reports  of pension  and welfare  plans               are, or        could be,   used
by PWBA for enforcement   of ERISAo

Our current    review disclosed      that PWBA has not
conceptualized     how IPA audits      could be used to protect       plan
participants     and enhance   PWBA's    limited   enforcement
resources°     Our current    review disclosed       PWBA is continuing
to make little     use of the annual       IPA audits    to direct
enforcement    efforts   toward plans most in need of PWBA
investigation°      In December     ].986, the Department      announced
its long-term     strategy   for PWBA's     enforcement    of ERISAo
However,   the Enforcement      Strategy    Implementation     Plan does
not include    the role of IPAs to assist         PWBA in its
enforcement    efforts°

OIG believes   PWBA should    have recognized  the importance                     of
the statutorily    required   audits and incorporated   these
audits as an integral     part oi[ their strategy   to:

     --    protect     plan    participants,

    --     deter     the   misuse    of   plan    assets,      and

    --     enforce     ERISA    requirements°




                                      -2-
We found that annual IPA audit reports have               not   been very
useful to PWBA enforcement efforts,  because              the   reports:

     --    frequently   do not identify  ERISA violations
           subsequently   found by investigators;

     --    do not adequately      disclose     information      on   known
           ERISA violations;

     --   cannot be relied on because     IPAs do not always
          adhere to generally    accepted  auditing  standards
          when performing   audit testing,   and the reports do
          not contain   all the required   financial  disclosures;
          and

    --    are   about   2 years   old   when   received    by PWBAo

ERISA violations    found by PWBA or the Office of Labor
Racketeering   (OLR) are rarely identified      and disclosed   by
IPAs, even though the IPA may have reviewed        transactions
later found to be illegal       by PWBA and OLR investigators°
These improprieties     involved   both statutory  and criminal
violations.   We visited     IPA offices  to review workpapers     and
audit reports   and found that:

    --    Sixty-six   percent    of the IPA reports   reviewed  (41
          of 62 reports)     failed to identify   $14ol million   in
          violations    subsequently   found by PWBA or OLR
          investigators     during their plan investigations
          covering   the same periods.

    --    Eleven percent    of the IPA reports    reviewed   (7 of           62
          reports)   did not disclose   information    on $2°3
          million   in violations  although   the improper
          transactions   had been reviewed    by the IPAo

    --    Thirty-one   percent  of the IPA workpapers    reviewed
           (18 of 58 IPA workpapers)    lacked adequate   support
          to demonstrate    that the IPA tested or evaluated      key
          control   systems designed  to safeguard   plan assets
          from misuse.

    --    Fifty-one   percent of the IPA reports     reviewed    (86
          of 168 IPA reports)    lacked one or more disclosures
          required   by ERISA or the American    Institute    of
          Certified   Public Accountants   (AICPA) reporting
          standards.




                                  -3-
Although    PWBA    should    have   been aware     of the shortcomings
with   IPA reports,      eogo,    failures     to find   or clearly     disclose
ERISA   violations,      PWBA    has failed     to institute     a quality
control    program     to ensure     the   IPA audits    provide    the
intended    deterrent      effect    of identifying      and disclosing
ERISA   violations°        During    our   review,   PWBA   implemented     an
nAccountant      Opinion    Project n to review,        for enforcement
purposes_     certain    IPA reports      with   other   than   NunqualifiedW
IPA opinions°

Under    current    circumstances,       it is impractical        for PWBA                 to
use IPA reports        to monitor    plan   compliance      primarily
because:       (i) IPA audit     quality    needs   substantial
improvement,      (2) the AICPA      audit   and   reporting      guidelines                    do
not encourage       IPAs   to detect    or inform     PWBA of potential
ERISA   violations,      and   (3) IPAs who perform         audits    have
little    incentive     to identify     or report     ERISA    violations°

To better      protect    plan    participants,      improve          PWBAUs
enforcement       and ensure      the deterrent      effect          of the
independent       audits_    we   recommend     that  PWBA:

      --      determine     how   IPA   audits        can   be    used    (a)    as   an
              integral  part   of PWBA's    enforcement                  of    ERISA   and
              (b) as a protection     of the    retirement                    security    and
              welfare  of plan   participants;

      --      develop    and    implement     a quality    control     program     to
              ensure    that     (a) IPA audit     reports    meet   ERISA
              reporting      requirements      and AICPA     standards     and    (b)
              substandard       audit   work   or deficient      audit    reports
              are  identified       and   remedial    action    is taken;     and

      --      in conjunction      with    OIG,    work   with    the AICPA    to
              improve    the usefulness       of IPA audits         by (a)
              revising    the AICPA     audit     guide   to incorporate
              additional     auditing     procedures      and reporting
              standards,      (b) encouraging        the AICPA      to establish
              an ERISA    Practice     Sections      similar     to their
              Securities     and Exchange       Practice      Section   and   (c)
              assisting     the AICPA     in developing        and providing
              training    to interested        IPAs nationwide°

If   these    recommendations       cannot       be    effected
administratively,          we recommend        that   PWBA   propose    legislative
changes    to ERISA       which  would      authorize     the   Secretary    of
Labor   to:




                                        --'4--
     --     issue ERISA regulations      defining   IPA   auditing   and
            reporting  requirements;     and

     --   _ take disciplinary      action directly    against   IPAs who
            perform   substandard    audit work or render
            inappropriate     opinions   on financial    statements   that
            are deficient     under ERISA requirements       and AICPA
            standards,    similar   to the Securities     and Exchange
            Commission.

i_    Response   _6 PWBA,s formal     response   to the draft audit
report was not due before preparation          of this semiannual
report°    PWBA advised    us that they agree generally        with
OIG's recommendations      to improve   coordination     with the AICPA
so as to increase      the usefulness   of IPA audits°       PWBA
disagrees,   however_    that the use of these IPA audits has not
been conceptualized      as an integral    part of PWBA"s
enforcement    effort.    Indeed,  several    related actions     have
been taken during the past two years_          according   to PWBAo

PWBA stated that OIGns draft recommendations           on expanding
the role of IPA audits      requires  additional     research   because
implementing    those recommendations     would fundamentally
change:     (i) the current   relationship    between   the employee
benefit plan and its IPA and (2) the role of the Department
as it relates to the accounting       profession.      PWBA also
stated that_ given PWBA's limited        resources_    adopting   a
quality   control   program  over IPA audit reports       would require
further   research   into costs and potential      benefits°

PMBA°s  System Development      _ffo_t and _anagenent       of
Xnformation   Resources  Can    Be Xmp_oved

As part of our effort to assure         effective    and efficient
management   of information     resources    within the Departments
OIG reviewed    the Information     Resources    Management    (IRM)
functions   of PWBA.    OIG considered      this review important
since the General    Accounting     Office    (GAO) and the Office of
Management   and Budget    (OMB) have major concerns        related to
the Form 5500 processing      system°     Additionally,     PWBA's
current efforts    to develop    its ERISA Automated      Data Base and
Access  System may cost more than $i00 million           and represents
one of 17 high priority      systems    identified    in the
President's   Management    Improvement     Plano

Since 1978, PWBA's major ADP system used to enforce
fiduciary  standards under ERISA has been the Form 5500
processing  system.  This system requires the filer to submit
a Form 5500 to the IRS at the end of each plan reporting




                                  -5-
period°     IRS receives  the reports., places    selected   data onto
magnetic    tape and periodically   provides   updated   tapes to
DOLo

In 1984s PWBA was reorganized         into a separate    agency   with an
Assistant    Secretary   who supported    development    of an
electronic    filing system for processing       Form 5500
information    that could be used jointly       by DOL and IRSo       This
systems   the ERISA Electronic      Information    Handling   Systems
was to solve PWBAVs      problems   of data timelinesss      accuracy
and completeness°       In 1985_ PWBA contracted      a study on the
feasibility    of this system at a cost of approximately
$850s000o     According   to PWBAs this study was a major success
because   it concluded    that filing plan information         (ioeos
Form 5500) electronically        was both feasible    and positively
received   by the private     and public   sectors°

In 1986s a newly appointed       agency head changed       the focus of
PWBAVs   system development     approach    from the ERISA Electronic
Information    Handling   System to the ERISA Automated        Data Base
and Access    System°    This new effort has been approved         by the
Department    and has received     funding   from OMB to:
 (i) develop   user needs and functional        requirements   at a
proposed   cost of $ioi million       in 1987s and (2) provide      for
the remaining     system design .and first year operational         costs
in 1988 at a proposed      cost of $13o6 million°         PWBA
contracted    out for assistance     in developing     this system°

Using OIG's System Development   Monitoring         Program   and
interviewing  representatives  of GAO_ OMB         and IRS,   we found
the following  problems:

    --      Development    of an automated data base      systems by
            itselft   will not solve PWBA's problems       with data
            timeliness    and accuracy°

    --      The approach    taken by PWBA for the current       system
            development    effort   did not consider   improvements    to
            the present    system°    Howevers   IRS is currently
            considering    improvements    to the existing   system°

    --      PWBA's   IRM official    did not have the leading      role
            for the current     system development     effort°
            Additionallys    PWBA does not appear to have the
            skills and experience      needed   to manage   and direct    a
            major system development       effort.

Our draft    report  recommended    that the following     actions   be
initiated    by PWBA's Assistant     Secretary:




                                  -6-
     --    Redirect   the system development     effort   to: (a)
           address   the concerns    of OIG, GAO and the
           Department°s    Directorate   of Information    Resources
           Management    (DIRM);   (b) intensify   the coordination
           with the IRS; and (c) address       non-ADP  problems°

     --    Modify the Contractor's      Task Order and the Project
           Plan to: (a) document      proper planning    and
           management    of the system's    development;    (b) provide
           additional    technical  ADP requirements      (e.g.,
           targeting    subsystem,  master file); and (c)
           incorporate    an improved   present   system as a system
           alternative.

     --    Assign  the Assistant     Administrator   of the Office       of
           Information    Management    the project  management
           responsibility     for directing    the system's
           development.

     --    Supplement   the project    manager's   technical    skills
           and knowledge   with technical     assistance    from
           governmental   organizations     familiar   with system
           development   processes    and develop    a project   team
           having program    experience    and expertise    to develop
           acceptable   system documentation      and requirements.

     --    CQnsider   using Information    Systems   Planning    (or
           other proven    system development    planning
           methodologies)    to clearly   define PWBA's
           organizational    goals,  system objectives,     work
           processes   and information    needs°

     --    Continue to work with IRS to critically            evaluate
           each data element on the Form 5500.

Iq_BA Response    --   PWBA's   formal   response    to the draft system
development     review   report was not due before preparation          of
this semiannual      report.    PWBA advised     us that they agree in
principle    with several     of our recommendations,       e.g., those
dealing   with the structure       of their project     management    team
and the need for additional         technical    in-house   expertise°
They have been and will continue          to work with IRS on
improving    the Form 5500 and related        processing    system.    PWBA
strongly    disagrees,    however,   with OIG's other conclusions




                                  -7-
and recommendations.         In addition,   PWBA notes    that they have
been proceeding     under    the direction    of OMB and in accordance
with a plan    agreed   upon    by the affected   agencies°

OCCUPA_XONAL        SAF_fY     AND    _F_KI,TH AD,_LIN_STRATION

The Occupational        Safety   and Health      Administration        (OSHA)    is
responsible     for administering         the Occupational       Safety     and
Health    Act of 1970o       The Act was passed         to assure     safe    and
healthful    working     conditions,    and preserve      human    resources°
To accomplish      its mission,      OSHA    promulgates     occupational
safety    and health     standards    and enforces       compliance      by
inspecting    workplaceso        To administer       the program     for fiscal
year   1987,  OSHA    had a $226 million         budget   and a staffing
level   of 2,200°

Special    Revie_     of     OSRA    Enforcement    Activities

OIG issued     a final     report,    "Special    Review   of OSHA
Enforcement      Activities,"      in September      1987,  which    represents
the culmination       of a year-long,        comprehensive     audit   of OSHA
enforcement      efforts    in the New York       and Philadelphia
Regions°      This   review    was undertaken       at the request     of the
Deputy   Secretary      of Labor    and was prompted       by OSHA's     alleged
mishandling      of the abatement        (elimination)     of health     hazards
at two New York       thermometer      companies     and alleged
improprieties       in scheduling      inspections      by OSHA's
Philadelphia      Office°

The   report  identified      internal     control   weaknesses     as well   as
instances    of noncompliance       with    OSHA policies     and
procedures°       Such problems,       if not corrected,      could
seriously    impair     the agency's     effectiveness      in discharging
its duties°       OSHA   concurred    with   the   report's   findings    and
agreed    to take    corrective    actions     in the following      areas:

     --     _anagement      Control     Systems°      Two of OSHA's       primary
            management      control     systems    are   (i) the    Integrated
            Management      Information       System    (IMIS),    and   (2) the
            Internal     Evaluation      Program     (IEP) o    The IMIS     was in
            an interim      stage   of development        and did not meet
            overall    management      needs    to effectively        control
            enforcement      activities°        The IEP did not always
            identify     and correct      organizational        weaknesses
            which   existed     at the area       office    level°     OSHA
            agreed   to (i) expand         its IMIS to track        appropriate
            data/control       items,    and   (2) revise      its IEP to
            ensure   correction       of area     office   problems°




                                         -8-
     --    Abatement   of Hazards.      Assuring   abatement    is the
           cornerstone    of OSHAUs enforcement      activity.     The
           review disclosed      that OSHA's policy     did not require
           documentation     verifying   abatement   by follow-up
           inspections    or appropriate     notification    from
           employers°     Even where there was documentation          of
           abatement   verification,      it was sometimes    not
           obtained   until long after the established         abatement
           deadline   had passed.      OSHA's policy now requires
           appropriate    and timely documentation       of abatement°

     --   Targeting    and Scheduling     Inspections°       Targeting
          and scheduling      inspections    are critical     to
          effective    resource    utilization     in a program    where
          limited   enforcement     resources    must cover about six
          million   workplaceso      OSHA's policies      and procedures
          did not require appropriate         documentation      to ensure
          the integrity     of OSHA's construction        targeting
          practices°     The number of planned        health
          inspections    of high-risk     workplaces    was
          insufficient     and inspections      in response    to serious
          complaints    were not always performed         in a timely
          manner°    OSHA procedures      now require appropriate
          documentation     of targeting     practices    and OSHA
          intends to increase       the number    of health
          inspections°

    --    Penalty   Assessment°     The review disclosed      that OSHA
          needs to communicate      clearly   its national    policy
          regarding   the purpose    and role of penalties      and
          negotiated    settlements    with employers.     In
          addition,   field offices     did not consistently      follow
          established    procedures    for calculating   penalties°
          OSHA will issue a memo explaining         its penalty
          policy and will ensure compliance        with penalty
          procedures°

ManagementQs   Corrective    Actions   to Date

OSHA's positive     response    to our report resulted    in agreement
to all 38 recommendations°         Twenty-eight  of these
recommendations,     however,    remain open pending   completion   of
the planned   corrective     action.    Examples of open
recommendations     which OIG will follow up to ensure
corrective   action    include:

    --    HiKing 100 additional   industrial   hygienists°   In
          Fiscal  Year 1988, OSHA expects    to fill 30 current
          industrial  hygienist  vacancies,   and the agency




                                -9-
            intends to replace,     through   attrition,    70 current
            safety inspector    positions    with industrial
            hygienists°     OIG feels strongly     that OSHA needs to
            increase   its number   of industrial     hygienists   in
            order to provide    adequate    health inspection
            coverage   across  the nation°

     --     Communicating    the agencyDs  penalty   assessment
            policy.    Although  OSHA did not agree that its
            penalty   assessment  policy was unclear,     OSHA did
            agree to issue a memorandum     to the field offices
            clearly   explaining  the agency's   penalty   policy  and
            goals°

General   Risk Analysis    of   OS_A   Programs    and
_anagement    Systems

In July 1987, OIG issued       its report,   _OSHA Programmatic   and
Management   Systems   Review   -- General   Risk Analysis° _ The
report discusses     OIG's preliminary     review of OSHA's various
programs   and management     systems°   OSHA's programs   and
systems   are identified    and risk-ranked     using GAO's Controls
and Risk Evaluation      (CARE) audit methodology°

The report provides     the basis for OIG's long-range        plan for
reviewing   those OSHA operations      which display    high potential
vulnerabilities     to fraud, waste or mismanagement°         The
following   four programs    were found to have the highest
potential   vulnerabilities     of all OSHA systems     reviewed:    (i)
state enforcement,     (2) Federal    enforcement,    (3) standards
development   and (4) investigations       of reprisals   against
employees°     Since OSHA's    state enforcement    programs   have not
been reviewed    as recently    as the other three areas,      OIG has
initiated   a pre-survey    of state enforcement     issues°

_     _I_YE_TE)     BFJk[_TB AD_%ZNISTRATZON

The Mine Safety and Health Administration           (MSHA) administers
the provisions     of the Mine Safety and Health Act of 1977o
The program     is designed   to reduce the number      of mine-related
accidents    and fatalities    and achieve    a safe and healthful
environment    for the nation's     miners°    Approximately    5,585
coal and 11,600 metal/nonmetal         mining operations     are under
MSHA's   jurisdiction.      For Fiscal Year 1987, MSHA had an
approved   staffing    level of 2,909 and a $156 million        budget.

During    this reporting   period,     we   completed    a review   on
MSHA's    State Grants   Program.




                                  -10-
State      Gz_ts   Pzogz_

We reviewed    MSHA's  compliance  with Section   503 of the 1977
Federal   Mine Safety and Health Act which      requires  MSHA to
provide   financial   assistance  to states  in developing    and
enforcing   mine safety and health lawso

Our survey disclosed   that improvements   are needed                    in the
state grant agreements   and management  and control                     of state
grants°   In reviewing  the grant approval   processt                    we found
that:

      --      Grant narratives    did not always   contain specific
              goals_ objectives_    a detailed  plan of action and
              quantitative   projections   of results°

      --      The grant approval         process    lacked    District     Office
              involvement°

These conditions    occurred  because   MSHA had not provided
clear policies   and procedures    to grantees    to assure  that
grants contained    specific  objectives    or guidance   on data
needed to measure    the program's    effectiveness°

MSHA did not have clearly   defined  policies_   procedures   or
responsibilities to ensure   sufficient   management   controls
over its grant program°    As a results   the monitoring    system
was ineffective;  grants and letters    of credit were not
closed out; and records were not maintained      on audits
performed°

We   recommended     that    MSHA:

      --      develop   and issue a policy   statement    that reflects
              MSHA's current    objectives  for the State Grants
              Program   and issue procedures    for grantees   to use as
              a guide for preparing     the required   grant
              narratives;

      --      develop  formal procedures    for involving  the Coal
              and Metal/Nonmetal   District   Offices  in the grant
              proposal  review process;

      --      centralize   the   State Grants Program accountability
              responsibilities     under the Office of State
              Programs;   and

      --      develop   an   internal     State    Grants    Program     operations
              directive°




                                        -ii-
_PLO_         _      TRAXNING   _II_X_RATXON

The Employment      and Training     Administration       (ETA) administers
programs    to enhance     employment    opportunities      and provides
temporary    benefits    to the unemployed       through    employment    and
training    programs    authorized    by the Job Training        Partnership
Act (JTPA)_ the Work Incentive           (WIN) program      authorized    by
the Social     Security   Act_ the Unemployment         Insurance    (UI)
program0   the Trade Adjustment        Assistance     Act and the
Employment    Service    authorized    by the Wagner-Peyser        Acto    In
Fiscal   Year 1987_ authorized        staffing    was I_781 and ETA's
budget was $29o9 billion°          Of that amount_       $25°6 billion     was
for the UI Trust      Fund_ $3o7 billion       for JTPA,     $326 million
for Older Workers,       $ii0 million     for WIN0 and $176 million
for Trade Readjustment        Allowances     (TRA)o

                  X_ian   and   Native    American   Programs

Indian and Native American        programs  are federally
administered    programs    authorized   by JTPAo   The purpose   of
the program    is to provide     job training   to economically
disadvantaged_     unemployed    or underemployed   Indian and Native
Americans°     Fiscal   Year 1987 budget authority      was $61o5
million°

Although    the enactment    of the Single Audit Act has reduced
our activities     in performing     financial    and compliance
audits_   we perform   reviews     in support    of investigations    or
by request    of program    administrators°       A recent audit of the
Oglala   Sioux Tribe,    Pine Ridge,     South Dakota,    exemplifies
such a cooperative     effort between      the Office of Audit and
ETA°    ETA requested    an audit of the Oglala       Sioux Tribe on
the basis of information        developed    during their monitoring
reviews°     One concern   centered    on the disposition      of Federal
JTPA funds withdrawn      by the grantee      in an amount    in excess
of reported    program   expenditures°

The audit questioned    or recommended   for disallowance
$139_890   for the period   October I_ 1983 to March 31, 1987o
Two major deficiencies     in the Oglala  Sioux Tribe°s   financial
management   practices  that were identified    in the audit
include:

    --     JTPA funds were used to finance         non-JTPA   activities
            ($139F890)o    Direct   loans and advances      of JTPA
           funds to the Tribe"s      General   Fund and Special
           Payroll   Account   totaled   $99,000 as of March 31,
           1987o    Further,   JTPA funds were disbursed




                                   -12-
            inappropriately     (i) to cover indirect  costs which
            were $34,410    (56 percent)   in excess of the $61_000
            budget;  and (2) to cover $6,245 of unallowable       bank
            charges  and $235 of other unidentified     expenses°

     --     Financial   management   controls   were     inadequate°   In
            particulars   the lack of separation         of financial
            management   responsibilities     leaves     the JTPA program
            funds vulnerable    to abuse°

We recommended      that the Tribe       return to the   Department  of
Labor $139_890      of unallowable       disbursements   and strengthen
their internal      controls°

ETA has also taken action°        The Tribe's  Letter of Credit           was
terminated    and ETA installed    a cash advance   process for
tighter   control    over funds°   ETA issued an initial
determination     disallowing   the full amount questioned°

Puerto    Rico   Balance   of   State   C_TA

As part of our efforts     to assist ETA in closing     out the CETA
program   in Puerto Rico, we issued a report in September
1987, on a followup    review to the CETA Special      Purpose
Review of all grants awarded      to the Puerto Rico CETA Balance
of State program°     This follow-up    review identified
$78,135,702   of questioned   costs and $562,186 of costs
recommended   for disallowance,    as summarized   below:

    --      Deficiencies    in the financial   management     system
            were identified     in the follow-up   review°     These
            deficiencies    appeared  in the Financial     Status
            Reports   submitted   to ETA for 28 grants which were
            in excess of the amounts     recorded   in the general
            ledger by $45,684,190o      We have, therefore,
            questioned   costs of $45,684,190o

    --      The Prime Sponsor    did not establish      an adequate
            system to resolve questionedcosts          or costs
            recommended   for disallowance     resulting   from
            subrecipient   audits°     Our review disclosed     that
            $32,405,535   of subrecipient     questioned   costs and
            $562,186   of subrecipient    costs recommended     for
            disallowance   remain unresolved°

    --      Our review of the Prime Sponsor's       systems    for
            participant   eligibility   determinations_     participant
            allowances_   and participant    wage payments     resulted
            in questioned   costs of $45,977°




                                    -13-
                     Unemployment     Insurance    P_ogram

The Social   Security  Act of 1935 authorized      the Unemployment
Insurance   (UI) program   as a support    system for workers    who
have suffered    a loss of employment    and who are available      for
work°   The UI program    is a unique   Federal-state   partnership
that is based upon Federal      law, but is implemented     through
individual   state legislation°

The states are responsible       for operating   the program°      They
are free to set the parameters        of their operations     provided
they conform     to broad Federal    guidelines°   This program      is
administered     at the state level by the State Employment
Security   Agencies    (SESAs) in the 50 states and three other
entities    (District   of Columbia,   Puerto Rico and the Virgin
Islands)o     At the Federal    level, the Unemployment     Insurance
Service   (UIS) of ETA is charged      with ensuring   proper    and
efficient    administration    of the UI program°

In Fiscal Year 1987, total unemployment              benefits    to   be   paid
was estimated at $15.8 billion°

   _e_e_al   Sha_e     of the   Unemployment      Compensation    P_og_

Between   February    1984 and December      1986, OIG audited    the
Federal   share of the unemployment         compensation   (UC) program
in 42 states     (including    Puerto   Rico and the District     of
Columbia)°     The Federal     share of the UC program      comprises
benefits   paid to Federal       (UCFE) and ex-military     (UCX)
personnel,    the Federal    portion   of the Extended    Benefits    (EB)
program,   and benefits     originating     from the federally    funded
Federal   Supplemental     Compensation     (FSC) and CETA Public
Service   Employment     (PSE) programs..

An individual   report was issued to each state as each audit
was completed°    A report summarizing     the results    of these 42
audits was provided     to ETA in September   1987o    The audits
covered   $10o8 billion   of Federal  unemployment   compensation
benefits   for the period   October  I, 1981 through
September   30, 1984.

Our audit objectives  were_to   determine   the validity   and
accuracy of federally   supported   unemployment   benefit  charges
reported by the states to the Department       of Labor°




                                    -14-
We identified    $226.4   million    net    costs    recommended          for
disallowance:

    --    overreported     costs    of    $24901    million;

    --    less allowable     costs of $9o7 million             not    reported
          by the states     for reimbursement;  and

    --    less adjustments    of $13.0 million   made by                  states_
          subsequent   to our audit period,    to reduce
          overreported   costs.

Of the amount   recommended    for disallowances     the majority,
$233.4 million,    relates to the EB program°       This program
provides  additional    compensation   to eligible    participants
who have exhausted     all rights to regular     unemployment
benefits.    EB is financed    equally  from Federal     and state
funds°

The $249ol   million   in overreported        costs    consist       of    the
following:

    --    $145o7 million      in 16 states that did net timely
          enact the work search       requirements      to qualify    for
          Federal   sharing of extended        benefits°     These
          requirements     of P.L. 96-499 were effective           for the
          first week of unemployment         beginning     after
          March 31, 1981.       Several    states have requested
          legislative     relief which would retroactively           change
          the effective     date of the Extended        Benefit    (EB)
          work search     requirement    from April I, 1981 to some
          later date in 1981 that would make these 16 states
          entitled   to reimbursement       of $145o7 million°
          Retroactively     allowing    these 16 states to charge
          benefits   to the Extended       Unemployment     Compensation
          Account   would result     in the other 37 states w
          employers    also funding     the EB costs which were not
          subject to Federal      sharing    according    to applicable
          legislation.      On June 9, 1987, OIG expressed           its
          concerns   to the Senate Finance         Committee    about any
          legislation    that would shift the funding           burden of
          these costs.

    --    $49.2 million     in ii states which  had a compensable
          waiting   week for regular benefits    but continued   to
          charge the Federal     Government  for first week EB
          payments.     P.L. 96-499 denies the Federal
          reimbursement     of first week EB payments   if state




                                   -15-
            law provides  for payment of regular benefits    to
            claimants  for their first week of unemployment°

            PoLo 96-499 gave the states a grace period to enact
            waiting   week legislation  before the Federal
            restriction   on first week EB reimbursements      became
            effective°    ETA and OIG disagree   as to the grace
            period allowed   some states°    This disagreement    will
            be the subject   of a second Federal   share audit
            report to be issued as a management     letter to the
            Secretary°

     --     823°8 million   in 33 states of overreported   costs
            because  of miscellaneous   errors in all Federal
            programs o

     --     817o2 million  in 15 states of state          and local
            _ove_nnent  EB cha_geSo   PoLo 91-373         requires  that
            state and local government    EB costs        be 100 percent
            state funded°

     --     81003 million     in 16 states of _B overcharges    on
            combined   uage claimso    These costs were charged    to
            the Federal    Government  when payments  were made to
            claimants,    but not credited  when reimbursements
            were received    from other states°

     --    8209 million     attributable  to ineligibility         ofg   and
           overpayments     to_ EB claimants°

For information       on resolution    and corrective   action taken       to
date on the 42       audit reports    issued,  see Chapter   3, Audit
Resolution°

UC_S/UCX   P_ogram

The states pay UCFE and UCX benefits             as agents    of the UoSo
Government°      The Federal    Government,      through    ETA, reimburses
the states    for the amount      of benefits     paid to claimants°
The states    report,    by employing     Federal    agency,    the benefit
amounts   paid to ETAo       ETA bills each Federal         agency for the
benefit   costs°     Many states"     systems    did not contain     the
proper   controls    for reporting     UCFE/UCX    charges    by the
appropriate    Federal    agency°     The states drew their money
from the Federal      Employee    Compensation      (FEC) Account    in the
Unemployment     Trust Fund (UTF) but failed to prepare             accurate
reports   to ensure that appropriate          Federal    agencies   properly
reimbursed    the FEC Accounto        These system/reporting
deficiencies     did not affect the their receiving




                                   -16-
reimbursement     for UCFE/UCX   charges   against   the Federal
Government°      However,  we found that since 18 states did not
accurately    report UCFE/UCX    charges   by Federal   agency_  the
FEC Account    in the UTF was not reimbursed        at least $12o6
million    ($11.6 million   UCFE/$1   million   UCX) o

Federal   Supplemental        Compensation    (FSC)    Pregram

The audit additionally       identified     $34°4 million      in FSC
overpayments.      FSC benefits    were payable      to eligible
claimants   who exhausted     their   rights to regular       and extended
benefits°     FSC was 100 percent      federally     funded°     We did not
recommend   these costs for disallowance          due to the
immateriality     of these costs to total program          costs°     We did
recommend,    however,   that ETA direct the states to recoup
these funds according       to state statute and return
recoupments    to the Federal     Government.      It should be noted
that these overpayments       represent    only °6 percent       of the
$5.35 billion     of FSC payments     audited    for the period
September   18, 1982 through      September    30, 1983o      The states
should be commended      for such a low overpayment          rate during a
period when Congress      continually     changed   claimant
entitlement    levels.

DEPARTHENTAL     R_NAGEMBNT

Departmental    management    refers to those activities       and
functions   of the Department      which formalize     and implement
systems,   standards,   policies    and procedures     to ensure
efficient   and effective     operation   of administrative      and
managerial   programs.     The Assistant     Secretary    for
Administration    and Management      has oversight    responsibility°

We reviewed   two major functional    areas within    departmental
management:     (I) Information  Resource   Management    (IRM) and
(2) Procurement.     Within the broad category     of IRM we
completed   reviews  on:

    --     ADP   commercial      services,

    --     computer     security,      and

    --     BLS   and   PWBA   system    development.

In the Procurement       area we reviewed  a major contract  awarded
by the Solicitor's       Office and the Department  of Justice   to
provide litigation       support to handle  ERISA cases°




                                    -17-
                   Znfoz_a_io_     Resouzces    _anage_en_

ADP   Co_e_cial     Services

The Department    depends   on the private   sector to provide            ADP
services   so the agencies     can carry out their missions.              In
1987, ADP commercial      services  were the largest    ADP
expenditure   in the Department     -- $53.4 million,    or 48
percent,   of the Department's     $ii0.6 million   information
technology   budget°

Previous   audits of various      individual    ADP commercial
services   contracts    identified    potential    problems   in the
Department's     ADP contract   managemento      During    the last
reporting    period,   OIG reviewed    departmental     processes   for
planning,    acquiring   and administering      ADP commercial
services   contracts°

Contract  administration    for ADP commercial      services   did not
always protect   departmental    interests    by certifying    invoices
for payment   and safeguarding    electronic    data.    In addition,
contract  provisions   did not protect     departmental    software
rights,  cover contractor    personnel   qualifications      or provide
for recovery   of funds for inadequate      services°

Our review also found that, under the Department's
decentralized     structure    for information      resources
management,    program    agencies   plan, acquire      and administer
contracts    for ADP commercial       services   with minimal
departmental    guidance    and ow_rsighto       With appropriate
coordinations    the problems      identified    in our review might
have been prevented       if responsible     program    managers  had
received   timely guidance      and assistance      from departmental
technical   support    organizations.

Finally,  ongoing   ADP commercial  services    contracts   require
more timely   review and oversight   to identify     and correct
systemic  problems   before new contracts    are planned   and
awarded°

We recommended     and the Office of the Assistant             Secretary    for
Administration     and Management        (OASAM) agreed with all our
recommendations      except    one°    OIG recommended      revising    the
DepartmentUs     criteria    for determining       what constitutes      an
ADP acquisition      to reflect     the expanded      Federal   Information
Resources    Management     Regulations      (FIRMR) definition      of
automatic    data processing       equipment    and ensure    that upcoming
acquisitions    which fall under the newly issued definition0
such as the Black Lung medical            bill processing     contract_     are




                                   -1 8-
properly   included   in the Department's       review process     for
acquisition    of information    technology     resources°     OASAM
responded   that the criteria      for determining     what constitutes
an ADP acquisition      is already    included   in the FIRMR text°
However,   OASAM's   Directorate    of Information      Resources
Management    agreed to ensure that written         guidance   to
agencies   will indicate    specifically     which FIRMR parts must
be consulted    whenever   a services    contract    is contemplated°

Computer   Security

DOL is one of eight agencies      participating    in a project
focusing   on control   and integrity   issues in the data
processing   life-cycle.    The project   is being coordinated     by
the President's    Council  on Integrity    and Efficiency   (PCIE)o

After our review,    it was our general    assessment   that:   (i)
the Department   has established    policies   and procedures  that
implement  the requirements    of OMB Circulars    A-123, A-127 and
the planning   requirements   of A-130;   (2) DIRM has established
an Information   Resources  Management    (IRM) review program;
and (3) information    is being shared,    as needed,   among
agencies°

We recommended,     and the Assistant      Secretary   for
Administration     and Management     agreed   to delegate   information
dissemination    procedures     to the Office of Information       and
Public Affairs.       In addition,    specific   actions   to improve
the Department's      implementation    of computer    security
policies,   oversight     function   in DIRM, quality    assurance
policies   and Privacy     Act requirements     have been incorporated
into DIRM's    Fiscal Year 1988 workplans.

System   Development  Monitoring   --
Bureau   of Labor Statistics    (BLS)

BLS is the Federal      Government's    principal   data gathering
agency   in the field of labor economics.          BLS' overall
mission   is to collect,     process,   analyze,   and disseminate
sensitive    statistical    data used to establish      economic   policy
in employment,     unemployment,     the labor force, productivity_
prices,   wages, family expenditures,        industrial    relations   and
occupational     safety and health.      BLS is composed     of an
Office of Commissioner;        six major program    components,    each
headed by an Associate       Commissioner;    and four major
functional    support areas.




                                 -19-
We surveyed    BLS to gather general   background    on information
resources   management   and to determine   whether   the system"s
planning  implementation    was properly   controlled   by the
agency°

we   found   that:

      --     BLS effectively       manages    and   controls    its   system
             development   and     design°

      --     While BLS does not use contractors     to develop
             functional  specifications   for system developments_
             it does use contractors    to perform  specific   tasks0
             such as training   and data entry°

      --     BLS has implemented        standards   for    hardwares
             software  and other       computer-related      products     and
             services°

      --     BLS is able to report       system costs_ such as
             hardware/software,      personnel   and computer    use, by
             the categories     required   in OMB Circular    A-130,
             _Management   of Federal     Information   Resourceso _

However_  BLS does not fully respond to all departmental
planning  requirements and we recommended that BLS work                     more
closely  with DIRM in the future°

P_A°s   System       Development    _ffort and _nagement
of InfOrmation        Resources    can be Improved

Information  resources  management   by PWBA            has    been   discussed
in the section  on PWBAo    (See page 5°)

                                   Procurement

Acumenics     Research     _d   Technology_      XnCo

We reviewed    contract    modifications    awarded    by the
Solicitor"s    Office    (SOL) to Acumenics     which appeared     to
conflict   with Federal     appropriation    laws and procurement
regulations°      Initiallyp    in June 1982, SOL awarded       Acumenics
a 4-month    $395_000   sole source contract       through   the Small
Business   Administration      (SBA) 8(a], program.      The contract
required   Acumenics    to provide    litigation    support   to SOL's
Special   Litigation    Task Force for cases filed under the
Employee   Retirement     Income Security    Act (ERISA) of 1974o




                                     -20-
In September    1982_ Labor°s    contracting    officer   objected   to
extending   the expiring    non-competitive     contract   with
Acumenicso     (8(a) firms can be awarded       contracts   on a
non-competitive     basis°)   As a result,     SOL turned to Justice
to obtain a non-competitive       contract   with Acumenics     to
continue   the litigation    support   because   the two agencies
have joint responsibility       under ERISAo     Justice   then awarded
Acumenics   an 8(a) sole source contract        to perform    the work
for Labor°

In 1983, Acumenics   lost its 8(a) small business           status
because  it was bought out by a larger company°             In 1984,
Justice  transferred  administrative responsibility           of the
contract  to Labor°

Through   subsequent   contract    extensions,    Labor had increased
the contract    funding to $9°0 million        and extended  the
contract   period through     1989o    Specifically,    the March 1986
modification    extended   the contract     for 3 years and increased
contract   funding   by $3°7 million     by using Fiscal    Years 1982
and 1983 funds°

 In September    1986, OIG requested  a legal opinion   from the
 Comptroller    General  of the GAO on issues  relating  to the
 contract°     In July 1987, SOL notified   GAO that the Acumenics
 contract   was being terminated°    In August  1987, GAO notified
the   Secretary   of Labor and the Inspector   General  that:

     --   The current    contract   was   not   a legal,   enforceable
          document°

     --   It was unacceptable to award modifications  on            an
          8(a) basis after the contractor  has lost 8(a)
          status°

     --   The litigation    support services,    consisting   mainly
          of clerical   tasks, were severable     into time
          periods;  thus_ the sole-source     contract   extensions
          were not authorized°

     --   Expired   Fiscal   Years 1982 and 1983      appropriations
          totaling    $7°9 million  could not be      obligated   in
          subsequent    years to pay for future       services°

In view of the foregoing_     GAO instructed    Labor to (a) adjust
its accounts    to pay for the reasonable    value of the services
rendered   during each fiscal year out of that year°s
appropriation,    and (b) deobligate   the expired   funds that
were impcoperly    obligated°   In addition,    GAO informed  Labor




                                -21-
that if any of Labor°s     unobligated   fiscal  year
appropriations   were insufficient     to make the adjustment,
then a reportable    Anti-Deficiency    Act violation  occurred°

The Comptroller      of the Department      subsequently    certified
that there were      sufficient  funds     to cover the    prior year
expenditures°

_IPLOY_NT     S_AI_ARDS   AD_I_ISTRATXON

The Employment   Standards  Administration    (ESA) is composed   of
three program   offices:   the Office   of Workers'  Compensation
Programs  (OWCP), the Office    of Federal  Contract  Compliance
Programs  (OFCCP) and the Wage and Hour Division°

     --     OWCP administers    three laws providing   compensation
            and medical   benefits,  primarily   for on-the-job
            injuries  and occupational    diseases,  to civilian
            employees   of the Federal   Government,  coal miners
            and longshore   and harbor workers°

     --     OFCCP administers    an Executive   Order and portions
            of the statutes   which prohibit    Federal    contractors
            from engaging   in employment   discrimination      and
            require affirmative    action  to ensure    equal
            employment  opportunity°

     --     Waqe and Hour enforces      minimum  wage and overtime
            standards,    establishes   wage and other standards   for
            Federal   contracts,    and enforces  aspects of other
            employment    standards   lawso

In OWCP_s Division      of Federal    Employees'    Compensation,     we
evaluated    promised   corrective    action on our previously
reported    review of the timeliness        of FECA claims
processing°      We also monitored      OWCP/OPM   crossmatcheso      In
OWCP_s Division     of Longshore     and Harbor Workers p
Compensation,     we reviewed    compensation    payments    made during
1983 under the Longshore        and Harbor Workers'      Compensation
Act°   OIG is in the process        of performing    a financial
management    review of ESA.       The results   to date of the
financial    management    review are reported      in Chapter    2 of
this report°

             _e_al     _mployees    ° Compensation   P_og_

The Federal  Employees'   Compensation   Act (FECA) is the sole
form of workers'   compensation   available  to Federal   employees
who suffer  on-the-job   injury or an occupational    disease°




                                   -22-
The Department     of     Labor administers         the Act0  but all       Federal
agencies   influence       how effectively         it is implemented°

In Fiscal    Year   1987_    FECAUs   approved    staffing      level   was 913
with   a $46°3   million     budget.     The appropriation         for Federal
employees'    compensation       benefits    totaled    about     $1o2
billion.     Approximately       48,800   claimants     will    receive
long-term    benefits     and another     68_000    Federal     employees
received   continuation       of pay for short-term          job-related
injuries°

In our previous        semiannual       report,     we reported     on our     review
of the FECA      claims    approval      and payment       system°     We found
that   the majority       of FECA claimants          appeared     to be
adequately      served    by the present        FECA payment       system°      Our
sample    results    disclosed      that    92 percent      of the injured
Federal    employees      sustained      only   short-term      disabilities       (45
days   or less).       The majority        of these     employees     suffered
traumatic     injuries     but did not file          claims    for lost    wages    as
they were     covered     by continuation         of pay°      However_    the
remaining     8 percent      of the claimants         in our sample       had
disabilities      lasting     more    than    45 days    and0 therefore,        filed
claims    for lost wages.          Approximately        half of the 8 percent
experienced      delays    in receiving        FECA   compensation      payments°

These   delays   are primarily    attributable    to both  employing
agency   and OWCP practices°       We recommended    a number   of
improvements     to OWCP   on the  timeliness   of the present     FECA
claims   processing    system°

ESA management       stated    that    timeliness      of claims   processing
and prompt     payment    of compensation         have   been  major   OWCP
priorities     for several      years.      ESA has also      implemented
several    initiatives      which    have   resulted     in significant
reductions     in the number        and age of unprocessed         claims   in
their   inventory.

OWCP   stated   that   our specific    recommendations       complement
their   own management     initiatives,      and OWCP    plans   to adopt
them  where   feasible.     Further    study    of several     of our
recommendations      is planned    before    deciding    on specific
corrective    actions.     We shall    continue     to follow    up on
recommended     and promised    corrective      actions.

Over  a period    of years,       OIG and OWCP    have   been   cooperating
to improve    the employing        agencies'   management     of their     FECA
responsibilities.        OWCP     has invited    OIG to brief      employing
agencies'    representatives        on our   review    at their    next




                                      -23-
quarterly   meeting   with the employing agencies°     The two
primary   topics of discussion   will be timeliness    of FECA
processing    and light duty assignments   (rehabilitation)°

_CAIOP_    C_ossnatches

In several    of our earlier    semiannual    reports0   we reported
that OIG_ in conjunction      with OWCP and the Office        of
Personnel    Management   (OPM)_ crossmatched      FECA and OPM
computer   records to identify      instances   where   individuals
were receiving     OPM retirement    or survivor    annuities
concurrently    with FECA disability      or death benefits°       FECA
prohibits    the receipt   of these dual benefits°

We also encouraged     OWCP and OPM I=o make periodic
crossmatches    of the records°      To date, OWCP/OPM     has
completed   two additional     crossmatches     and is performing    a
third°    The results    of the these crossmatches       have been
successful_    particularly    in identifying     OPM overpayments0
which have averaged      $957_508   in the last two crossmatcheso
In cont[ast_    the FECA overpayments       have shown a significant
reduction   to a level of only $4_000 in the last crossmatcho
This reduction     is attributed    to claimants'    formally   electing
to receive    FECA benefits    as opposed    to OPM disability
retirement   benefits°      As a result_   any benefits    then
received   from OPM are considered       as OPM overpayments°

      Longshe_e    and   Ba[bo_   Workers   ° Compensation   Pzog_am

The Longshore    and Harbor Workers'       Compensation   Program
administers    and enforces    claims processing      and benefit
payments   to injured workers      covered   by the Longshore     and
Harbor Workers'     Compensation    Act.    The Act provides
compensation    to workers    for wages lost through      disability_
medical   treatment   and rehabilitation       services  and death
benefits   to surviving    dependents    of workers°

In fiscal year 1987_ Longshore     had a staffing  level of 144
and a $7°2 million   budget°   The Division   of Longshore   and
Harbor Workers'  Compensation    (DLSHWC) opened  approximately
43s000 new cases involving    lost time injuries;    and payments
were made on 17p700 compensation     cases°

During   this reporting     periods   we audited     a sample of
reported   calendar    year 1983 compensation        payments   made under
the Longshore     and Harbor Workers"       Compensation     Act for cases
in the New York District        Office°     The objective     of the audit
was to determine      if authorized     self-insured     employers  and
insurance    carriers   were accurately      reporting    to the DLSHWC




                                  .-24-
compensation    and medical   payments  they paid under the Act
during_calendar    year 1983o     The 1984 assessments are based
on these reported     payments°

Section   44 of the Act established         a Special    Fund to pay
specified   costs_    such as second injuriess        which are shared
by the industry      (authorized    self-insured     employers    and
insurance    carriers).     Annuallys    DLSHWC assesses     an amount
against   the self-insured      employers    and insurance     carriers
necessary   to replenish     the Special Fund°        The 1984 annual
assessment    was based on a formula which took into account
the amount of compensation        and medical     costs paid by each
self-insured     employer/insurance      carrier   as reported     to the
DLSHWC_   in relation    to the totals for all self-insured
employers/insurance      carriers    during the preceding       calendar
year°

The Special    Fund assessments     have increased     from more than
$40 million    in 1984 to over $55 million        in 1986o     During   our
review and subsequent      to the DLSHWC     requesting    detailed
backup   for reported   compensation      and medical   payments
totalss   one insurance    carrier    reported   understating     its
Longshore   payments   between    1972 and 1985o      As a results     the
carrier paid about     $7°6 million     in settlement    of past
assessments°     Authorized    self-insurers     and insurance
carriers   still report compensation        payments   on the _honor
system n and the DLSHWC does not confirm          the reports     through
independent   means°

Our audit disclosed        that some of our earlier        concerns   were
subsequently      addressed    by the 1984 amendments       to the Acts
the implementing       regulations    and revised procedures°
However_    DLSHWC    still needs to (i) strengthen         internal
controls    by reconciling      reported   payments    to DLSHWC    records
to ensure the accuracy         of reported    compensation     paymentss
 (2) provide    specific    reporting    instructions    to self-insured
employers    and insurance      carriers   on how to report adjustment
activity    needed to properly       account   for all paymentss      and
 (3) charge    interest    instead   of a penalty     on late assessment
payments.




                                  -25-
         C_A_ER      2 -- OIG ISSUES FIRST AUDITED    FX_AI_CIAL
          _A_TS          FOR DOL AGENCIES   AND CO_PILES   F_RST
                  DOL COI_SOLIDA_ED FI_AI_CIAL STATEmenTS


During   this reporting     period,    OIG presented    the first
audited   financial    statements     for two major DOL program
agencies   -- the Employment       and Training    Administration     and
the Occupational      Safety and Health Administration          -- and the
first compiled     DOL consolidated      financial    statements°     The
statements    are in accordance      with Federal    generally    accepted
accounting    principles     (GAAP) and consistent      with Treasury
financial    reporting    requirements..

This was a first time accomplishment       for both the Department
of Labor and for a Federal     Inspector   General°   These
projects represent    a substantial    step toward the Secretary's
goal of audited   financial   statements   for the Department    -- a
goal OIG plans to meet during      the next semiannual    reporting
period=

In additionF    we compiled   financial           statements  for the
Employment   Standards   Administration            and arranged   for, and
completed,   an independent    financial           statement  audit of the
Office   of Inspector   General°

Each financial     statement audit and compilation    project   was
coordinated    with a separate   review of financial   management
systems   using GAOgs Controls    and Risk Evaluation    (CARE)
audit methodology°

Projects   completed   or in process   enable   OIG to make a
preliminary    assessment   of the overall    status of DOL°s
financial   management°     Because  these projects     have broken
new ground    in the fields of Federal     accounting    and financial
reporting,   coordination    with DOL management     and GAO has
been, and continues      to be, a key to their     success°

Each financial     statement  audit  report contains   the following
components    required   under generally   accepted  government
auditing   standards:

    --      Financial      Statements     and    Opinion

    --      Report    on   Internal     Accounting       Controls

    --      Report    on   Compliance     with    Laws     and   Regulations




                                      .-26-
E_PLOY_      A_D TRAXNING    ADMXN_STRAYXO_

_na_uial    S_a_e_en_s and Opinion
The consolidated     statement  of financial    position   and the
related   statements   of operations,   changes    in financial
position,   and reconciliation    to budget   reports    for fiscal
year 1986 were audited      for ETA°

The ETA statement      of financial    position  showed assets of
$3902 billion,     including    $21.2 billion   in investments   of the
Unemployment    Insurance    Trust Fund, liabilities     of $21o3
billion,   and equity    of the U.S. Government      and Trust Fund
balances   of $18o0 billion.       The statement   of operations
showed   revenue and financing       sources of $30ol billion    and
related   expenses   of $22°9 billion°

Audit tests were restricted  to the Federal level°              Reporting
of state and local costs will be tested under the              Single
Audit Act°

In the auditors ° opinion,   the consolidated    statement    of
financial  position   fairly presents   ETAUs financial    position
at September   30, 1986, in conformity     with Federal  GAAP,
except  for the following   qualifications:

    --     Various   audit tests could not be performed          on
           beginning   balances   of accounts    receivable     and
           accounts   payable   since the audit commenced        after
           September   30 of the previous     year   (1985)o

    --     Accrued   state and Federal      unemployment    insurance
           taxes due from employers       totaling    $307 billion were
           recorded   based on actual tax collections         from the
           next quarter.      The validity    of this amount could
           not be verified      since neither    ETA nor the
           individual    states find it practicable        to maintain
           subsidiary    records    for individual    employers°

    --     Because   subsidiary    accounting   records   which fully
           identify   contractor    or grantee   advances   were not
           maintained,    confirmation    of individual    account
           balances   was impossible     and the auditors     were
           unableto    attest   to advances    to grantees    of $685
           million   shown on the statement      of financial
           position.




                                -27-
      --        The liability      of $13o8   billion    in future
                unemployment     benefits    was determined     using     an
                actuarially     unacceptable     estimation    method°

      --        The   liability     of $29 million     in future    FECA
                workers'     compensation     expenses    was  determined       using
                an actuarially       unacceptable     estimation    method°

No opinion     was   given   on the consolidated       statements     of
operationss      changes    in financial     position   and   reconciliation
to budget     reports    because   this   was the first     year   statements
were  auditeds      and it was not practical         to perform    various
audit   procedures     on beginning      balances°

Report     on    _nte_nal    Accounting       Controls

The  internal   control    report          identified   material    deficiencies
related   to grantee    advances           and property    management°

DOL's   current    systems   and controls      cannot    link  $684 million
in advances     to grantees     recorded    in the    General   Ledger    to
subsidiary     records   which   identify    advances     by individual
grantee°     We recommended      that   adequate    subsidiary     ledgers   be
established°

Weaknesses      in ETA's     property     management      systems    related    to
capitalization        of major     improvementst       recording     depreciation
and the accuracy         of costs     shown    on the    Real  Property
Management      System°      Capital     improvements      of $190 million
over   a 2-year      period   were   not    capitalizeds      accumulated               c,

depreciation       of $206 million        was not computed        and recordeds
and 6 out of 30 (20 percent)              of the DOL-owned        Job Corps
facilities      were    understated     by a net of $676s000o             As a
results    the cost      of ETA property        could   not be determined        and
accurately      included     on ETA's     report    of financial      position           x

submitted     to the UoSo       Treasury°       We recommended       that
accurate     recording      of ETA property        be improved     -- a
recommendation        ETA has. started       to implement°

Using   the   CARE methodologys         ETA's    systems   were   reviewed
concurrently       with   the financial       statement    audit°     The
findings     from   that    work   were  incorporated      in the    internal
control    report     of the financial        audit°     In additions     a
management      letter    will   be forwarded      to ETA on significant
internal     control     findings°




                                          -28.-
    Report    on   Co_pli_ce     _i_h     La_s     and   Regulations

    The report on compliance        with laws and regulations_         required
    by generally    accepted    Government    auditing    standardsg
    included   one exception°       ETA is required     to report net
    disbursements     according    to agency    records monthly    to
    Treasury°     Treasury    regulations    require   that discrepancies
    between   agency and Treasury       records   be resolved    by the
    agency within 90 days°         Treasury   transfers    unresolved
    discrepancies     into suspense     accounts   which ETA was not
    promptly   resolving°      ETA had four expense      accounts    totaling
    over $12o2 million      including    one suspense    account   more than
    16 years old.      Recommendations      have been made to clear
    existing   accounts    and to institute      procedures    to prevent    a
    recurrence°

    OCCUPATXO_AL       SAFelY   A_D     H_%LT_     AD_INXSTRAYXO_

    Financial      Statements    and     Opinion

    The statement       of financial  position   and related    statements
    of operationss       changes  in financial   position  and
    reconciliation       to budget reports   were audited    for fiscal
    year 1986 and       compiled  for fiscal year 1985 for OSHAo
                                                                       0


    The OSHA statement      of financial     position    shows assets of
    $68ol millions     liabilities     of $45°5 millions      and equity of
    the UoSo Government       of $22o5 million.       Appropriations    and
    other financing     sources    totaled   $22801 million     for Fiscal
    Year 19860     Other financing      sources   included    $8°2 million
    collected   from fines and penalties        which is transferred       to
    the. UoSo Treasury     General   Fund°    Expenses    for the year
    totaled   $220.ol million°

    In the auditors'     opinionr   the financial    statements  fairly
    present   OSHA's  financial   position   as of September    30_ 1986p
    and the results of operationsF       changes   in financial
,   positionw    and reconciliation    to budget   reports   for the year
    then ended in accordance      with Federal    GAAP, except for:

         --     Lack of available      documentation   on the cost of
                equipment   purchased     prior to October   10 19840    This
                equipment   was included      in the statement  of
                financial   position    at the cost reflected    in the
                accounting    records_    but the source documents    were
                not readily    available.      OSHA's property  was valued
                at $5°2 million     after depreciation°




                                           -29-
       --        The liability   for future   FECA workers u compensation
                 expensess  totaling   $18 millions   was determined
                 using an actuarially    unacceptable    estimation
                 method°

       --        Approximately    38 percent   of OSHABs    1986 budget    is
                 expended   through  grants°     Under the Single Audit
                 Acts audits of these grantees        generally  were not
                 due to the Federal     Government    until December    310
                 1987o    We were unable to fully test these grant
                 expenses°

Ro_t        oR    XntQ_nal   Accoumting   Controls

The internal   control  report identified             material   weaknesses
related   to grants managements    penalty           accountings    property
managements   and recording   obligations°

A number   of grants management        problems   were identifieds      with
three primary     contributory     factors°     Firsts the DepartmentUs
accounting    system does not acco_aodate         the efficient0     timely
recording    of grant information       as reflected     by an
overstatement     of grant advances      of $14o6 million      when
compared   to the grant files°         Seconds   the use of grant files
to track grant activity        is not efficient°       A summary    of key
information    on all grants     is needed     to efficiently    manage
the program°      (OSHA is developing       an automated    record
keeping   system to address      t:his problem°)      Finally_   the
current   grants management      process    needs more discipline       to
ensure proper monitoring        and documentation      in such areas as
grantee   matching    requirementss     property    and reporting.

OSHA_s Penalty    Accountability     System did not accurately
record interest     or delinquent    and administrative    charges   in
all cases°     (OSHA management     has indicated   that the system
has been revised     to correct   this.)     Alsos receivables   which
were waived   were not reflected       in the system on a timely
basis.   OSHAs in the past year, has revised their procedures
to address   the waiver    problem°

The Department's      property    management    system   (DPMS) cannot         be
relied upon to produce       accurate    information°      The
Department's     inventory   records were incomplete         and not
updated   on a timely basis°        For examples     some computer
equipment   was not included       in the DPMSs resulting       in a
$1o8 million     adjustment.      Property   was not always
capitalized     (recorded   as an asset)     in accordance     with
Federal   GAAPs   requiring    additional    adjustments    of
approximately     $i million.      For examples     additions   or




                                      --30-
improvements   to property  were not properly                 recorded,  and
components   of systems were not considered                  in the aggregate
for capitalization    but only as individual                 components,  thus
understating   the total amount capitalized.

Though   OSHA generally      was properly     recording   unliquidated
obligations     (undelivered    orders)    initially_    these
obligations    were not always liquidated          when an invoice     was
received   or payment     made for the goods or services          on a
timely basis.      As a result,     the accounting      records
understate    accounts    payable,   understate     current   period
expenses,    and overstate     undelivered     orders°    We also noted
several   instances    where obligating      documents    were not
executed   on a timely     basis°

Report     on Compliance      with     Laws    and   Regulations

NO   compliance       exceptions      pertaining      to OSHA   were   identified.

Review     of    OSHA's   Financial     Nanagement      Systems

We analyzed   systems    critical  to OSHA's operation    and
reviewed  transactions     that flowed through   these systems
using GAO CARE audit methodology       to determine   internal
control  strengths    and weaknesses°

A draft report has been            provided  to OSHA management   which
summarizes  the strengths           and weaknesses   of OSHA°s  systems
and the following   areas          of future planned   audit coverage:

      --        Grant Management    System -- The current    system had a
                number   of shortcomings°    Additional  work is planned
                in the areas of grantee     cash and accounts
                receivable   management,   grant monitoring   and
                closeout.

      --        Penalty   Accountability    System -- Though  the current
                system has been significantly       upgraded, problems
                identified    in data accuracy    and report utilization
                will be reviewed     further.

      --        Targeting    system -- The present      system for
                targeting    industries    and selecting    employers   for
                inspection    is complicated     and involved.     We will
                compare   the OSHA approach      to state targeting
                approaches    to determine    if the targeting     system can
                be improved.      (See Chapter    3, Audit Resolution.)
                OSHA's   Management    Information   System also will be
                reviewed   to evaluate    the validity    of the data base.




                                        -31-
     --      Equipment    Maintenance    System -- Finallys      OSHA has
             several   systems   for managing     technical   equipment
             maintenance°      Consolidation    of the systems     may
             result   in improved    efficiencies     and effectiveness°

_LOY_NT        STANDARDS     AD_INISTRATxo_r

_nancial      Statements     and   Compilation      Report

Financial    statements    have been designed      and compiled     for ESA
for fiscal year 1986.         The consolidated     statements     show
assets of $33°4 billion        and liabilities     of $33o3 billion°
Appropriations     and other financing       sources    totaled   $2.1
billions   with expenses      of $2°0 billion.       The statement     of
operations    presents    expenses   by national     budget   accounts
offices   object   class and expense      type.    Supplementary
financial    reports   present   the statements      of financial
position   and operations      by program   and by fund types
including   ESA_s three trust funds -- Black Lung Disability
Trust Funds Longshore       and Harbor Workers _ Compensation
Special   Funds and District       of Columbia    Compensation     Special
Fund°

A limited   number    of adjustments         have   been   made   in the
compilation:

     --      Reserves   for future workers u compensation     benefits
             have been recorded    using the current   agency
             estimation   method°

     --      Financing  sources      and    expenses     have   been   stated   on
             an accrual  basis.

    --       The accounts    receivable   from employing   agencies for
             the 2 years of FECA benefits      have been reflected°
             For Federal    agenciess   there is a 2-year   lag in
             payment  due to the length of the appropriation
             process°    Agencies   will include   the FECA billing  in
             their next budget     request°

The compilation     noted two departures       from Federal  GAAP:
 (i) the liability    of $30°4 billion      for future workers °
compensation    expenses   was not based on an accepted       actuarial
method;   and (2) statements      of changes    in financial  position
and reconciliation      to budget   reports   were not prepared
because   prior year statements      were not prepared°

Additional     adjustments    are   anticipated         during the audit°
Alsos the     fiscal year    1985   statements         will be compiled   to




                                    -32.-
present   all four required     statements    and comparative
information.      An actuary   is working   with OIG and ESA
management    to improve the workers'      compensation    estimates
for future    benefits.    These calculations      are significant   not
only to DOL but also to the financial          statements   of other
Federal   agencies   and departments    and the United     States
Government    as a whole.

Review   of   ESA's   Financial      Management   Systems

OIG's general   risk analysis  presents   the organization's
financial  management  profile   and includes   an inventory  of
systems;  a risk ranking of systems;    and the organization"s
mission,  funding  and organization   structure°    High risk
systems were targeted    for further  review.

ESA has 23 identifiable       financial    management    systems    of
which 7 have been identified        as high risk, 7 systems         as
medium   risk, and 6 systems      as low risk.      Three Longshore
program   systems,   not included    in the risk ranking,        are being
reviewed separately      in an audit of the Longshore         and Harbor
Workers'   Special   Fund.   The internal      controls   of the 7 high
risk systems    are being reviewed      further.     Four of the high
risk systems    are workers'    compensation     payment   systems which
are receiving    detailed   testing   in the financial       audit°

OFFICE   OF   INSPECTOR    GENERAL

Financial     Statements    and   Opinion

The statement   of financial    position    and related    statements
of operations,   changes    in financial    position  and
reconciliation   to budget    reports   for Fiscal Year 1986 were
audited  by an independent     certified    public accountant
firm.   The financial    statements   were compiled     for fiscal
year 1985 to present     comparative    information.

The statement    of financial    position   showed assets of $19.7
million,   liabilities   of $8.5 million     and equity     of $11o2
million.    In fiscal year 1986, financing         sources   totaled
 $39.8 million,   with related    expenses   of $40 million.       There
were $257,847    of unfunded   expenses    related    to accrued   annual
leave and workers'     compensation    expenses    which are to be
funded from future appropriations.




                                     -33-
In the auditors g opinion,     the statement   of financial
position   fairly presents   the financial    position  of the
Office of Inspector    General    as of September   30_ 1986_ in
conformance   with Federal   GAAP, except for the following:

      --        Because  this is the first year financial           statements
                have been audited_  it, was not practical          to perform
                audit tests on beginning   balances.

      --        The accounting    system did not accumulate   costs of
                internally   developed  ADP software°   OIG has
                developed  or enhanced   several  ADP systems  in-houseo

      --        The liability   for future workers'     compensation
                claims_  totaling    $1o7 millions   was determined   using
                an actuarially    unacceptable   estimation   method.

No opinion   was given on the consolidated       statements  of
operationst   changes    in financial  position   or reconciliation
to budget   reports   because   it was not practical    to perform
sufficient   audit tests on beginning      balances.

Report     o_    Internal    Accounting       Comt_ols

The report    identified    one deficiencyo      Federal   GAAP requires
amounts   payable   for goods and services       be recorded    as a
liability    when the goods are received       or services
performed.     The audit identified      a number of
misclassifications      between   accounts   payable    (liabilities)
and unliquidated     obligations     (undelivered    orders)°
Procedures    to ensure    the timely   recording    of the liabilities
were recommendedo

Report     on   Compliance     _ith    La_s    and   Regulations

No   compliance      exceptions       were    identified°

R_vle_     of   OXG_s   Financial      _agement          Systems

The independent    CPA firm evaluated     the internal     controls of
critical   systems   using the CARE methodology       to identify
internal   control   objectives   and techniques°      They evaluated
whether   the internal    control  techniques    effectively    met
their objectives_     including   whether   transactions    are
processed   according    to system design°




                                        -34-
Based on the results of the review,          the auditors    concluded
that, overall,     the internal    controls   of the systems were
adequate   to ensure    that information     processed   by the systems
is accurate    and properly     reported.    Several weaknesses     were
identified    including    the need to (i) update written
procedures,     (2) improve   system development     testing,    and (3)
improve   reconciliation     procedures   between   systems.     OIG is
taking appropriate      action to implement      the auditors v
recommendations     for systems    improvements.

OASA_     SYSTBMS    REVIEW

OASAM provides    administrative     and management     leadership     and
services   to the Department     and its program      agencies°     In
carrying   out its responsibilities,        OASAM operates     systems
which support    both its internal      operations    and the
operations   of DOL's program      agencies.     These systems were
identified   and are being evaluated        using the CARE
methodology.     A general    risk analysis     of OASAM's   systems has
been completed.      A full systems     review has been completed
for the Comptroller's      Office.

General     Risk    Analysis

OIG's general  risk analysis   presents   a financial            management
profile including  an inventory    and a preliminary             risk
ranking of the systems.    Those systems    identified            as high
risk are targeted  for further    review.

 A total of 74 systems -- 28 financial            management     and 46
 management    information    -- were identified.          Of the financial
 systems,   5 systems    support   planning    and program      development,
 8 support    budget formulation,      34 systems      support budget
 execution    and accounting,     and i0 systems       support   the audit
 and evaluation     of financial     activity.      Several    systems
 support more than one financial          activity.      They support     a
 variety   of administrative      functions     including    accounting,
 procurement,    payroll,   payment    processing,      property
management     and grant award and administration.              The 46
management     information    activities     support    such functions      as
personnel    management,    training,     productivity      measurement     and
ADP support.

Of the 74 systems     risk ranked using the CARE audit
methodology,   16 systems   were determined    to be high          risk   and
are being reviewed     in detail.   The systems    include
personnel,   property   and procurement   systems.




                                    -35-
Com_olie_s          Office

We have completed     transaction  flow review and compliance
tests and analyses     of systems  under the purview      of the
Comptroller's    Office°    The internal   control   techniques   were
analyzed   to determine    their effectiveness     in meeting   the
control   objectives.

Recommendations         were    made   to   correct:

     --      operating        procedures     which     were    not    documented_
             current,        or adequate,

     --      non   existing      procedures       which     need     to   be   developed;
             and

     --      existing        procedures     which    were     not    being     followed°

CONSOLIDaTeD       _XNANCXAL       STATE_NTS

Consolidated     financial    statements    for fiscal year 1986 have
been designed     and compiled     for tlhe Department°    The
statements    provide   a summary-level      financial  report which
builds   on the individual      agencies'    reports°   Supplementary
financial    statements    are presented     for DOL's eight program
agencies°     Financial    statements    also are presented    by the
various   types of funds DOL administers°

The compiled  statements  included the audited   amounts for
ETA_ OSHA and OIGo    Data has been compiled   for the remaining
DOL agencies°

The compiled     financial    statements    show assets of $72o9
billion_    liabilities    of $54o8 billion0       and equity    of $18ol
billion°     Total appropriations       and financing      sources  for the
year were $33o3 billion0        while expenses       on an accrual   basis
totaled    $26 billion°     These amounts      relate to DOL's trust
funds   (eogoe Unemployment       Insurance    Trust Fund_ Black Lung
Disability    Trust Fund_ etco)_       program    expenses    (eogo, JTPA
grants)_    and administrative      expenses     (eogo_ salaries)°

The compiled  statements            will be      the basis      for the        Fiscal
Year 1986 consolidated             financial      statement      audit°




                                          -36-
OVERALL   STATUS   OF DOL'S   FINANCIAL      MANAGEMEIqT

Based upon information    available    to date from financial
statement   audits and financial    management   reviews, OIG can
draw some preliminary    conclusions    about the Department's
overall   compliance with GAO standards.

Material   weaknesses    noted   in the Internal     Control   and
Compliance    Reports   issued   in connection    with financial
statement    audits,   other significant     internal    control   items
to be included      in related management     letters,    as well as
significant    internal    control  weaknesses    included    in our
financial   management     (CARE) reviews,    indicate    that
improvements     are needed before DOL will fully comply with
GAOls standards°

The capability    to readily    prepare the U.So TreasuryDs
required   financial    reports and internally   compiled  financial
statements    is merely   the outgrowth  of sound underlying
financial   systems   and controls.

COORDINATION    WITH   MANAGEMENT     AND   GAO

Throughout    this period,   OIG has worked    closely   with
departmental    management   and GAO to resolve     complex   issues on
how to apply uAAP to Federal       accounting   and reporting°      The
Assistant   Secretary    for Administration    and Management     and
the Comptroller     of the Department,    along with key program
officials,    are to be commended     for their active and
cooperative    participation    in the financial    statement
project.

The Department    is in the forefront      in ultimately    being able
to comply   fully with the revised      Federal   GAAP and U.So
Treasury   reporting  requirements.      The project    is well timed
since the Department     is currently    modernizing    its accounting
system to incorporate     Federal   GAAP and Treasury      reporting
requirements.

In the process    of auditing   Federal    financial    statements,    OIG
has also developed     a number   of approaches     and tools
including    joint use of OIG staff and CPAs under contract            and
the development    of a generic    Federal   financial    compliance
guide.    The guide provides    audit procedures       for testing
Federal   agency compliance    with financial     laws and
regulations    and focusing   on identifying     material
non-compliance    to be reported    in a financial      statement
audit°




                                    -37-
Financial    statement   audits of ETA, and OSHA have been
completed,    and draft reports are being reviewed        by
departmental     and agency management°     Financial    statement
audits of ESA and the consolidated        financial   statements   of
the Department     will be completed   during the next reporting
period°

Routine   annual   financial   statement    audits are planned°
Financial    statement   audits,   repeated   annually,   discipline
the accounting     systems   to provide    the most reliable    data on
resource   utilization     by testing   the Department's    consistency
in applying    accountings    reporting,    internal  control   and
other applicable     standards°

OIG is working  with management     to design an       annual  report   of
the Departments  which presents     the financial       statements
along with program   accomplishment    data°

With respect to program       accomplishment      data, reviews of
management    information   systems    and their     related program
statistics    are under way°     These    reviews   focus on evaluating
the systems'     internal  controls    and the program      data's
reliability    andF working    closely    with management,
determining    key measurement     statistics    which best present
program   accomplishments°

It is our opinion      that, for the benefit        of financial
statement    users,   financial    data must be presented       along with
program   accomplishment     information°       Matching   financial
input to programmatic       output    provides   a basis to determine
Federal   agencies'    return on investment°         With this
information,     management   and the Congress       can make more
knowledgeable     and cost-effective       decisions°




                                 -38-
                         Chapter     3   --     Audit    Resolution

                           Audit     Resolution          Activity
                                      ($ millions}



Period         Audit Reports                            Amount                        Total
Ending            Resolved            Disallowed             Allowed                Resolved

3/31/86            241                    $27.2                     $21.8            $49 o0
9/30/86            337                    $15.0                     $14.1            $29.1
3/31/87            223                    $84.8                     $38.6           $123 o4
9/30/87            149                    $98.0                     $40.3           $138.3




Detailed  information           on audit resolution   activity  for                       the
period may be found            in the appendix  to this report°

SIGNIFICANT       RESOLUTION        ACTIONS

                Management         Commitments          to   Recover        Funds

Following    are examples   of significant    resolution                            actions
taken by program     officials  which   cesulted   in the
disallowance    of costs claimed    by the Department's
contractors    and grantees:

UI   Federal     Share    Audit     Resolution

The Employment     and Training   Administration     (ETA) is
continuing   to resolve     the final Federal    Share state
reports.    As of June 30, 1987, ETA issued final Findings          and
Determinations     (F&Ds) for 29 of the 42 state reports,
disallowing    $74.2 of the $94.0 million      the OIG recommended
for disallowance      in the 29 reports.     Of this amount,    ETA has
recovered   $19.4 million     from the states.     Debts are
established    against   the states for the remaining      $54.8
million   of disallowed    costs.    Of this debt, $53.6 million     is
under appeal.

Significant    individual           Federal  Share reports                  resolved     or
sustained   this period            are listed below.

State of Kentucky,     Audit of Federal     Share of the
Vnemployment    Compensation   Program    (Audit Report No.
04-84-198-03-315)     --   ETA disallowed    $7,577,133   in cost
exceptions   in the Federal    share of Extended     Benefits   (EB)




                                              -39-
because   Kentucky    had not timely enacted     legislation
requiring    EB claimants    to actively   seek and to accept
suitable    worko   Kentucky   appealed   the disallowance    to the
Administrative     Law Judge    (ALJ) o During   this reporting
periods   the ALJ sustained      the Grant Officer's    decision   to
disallow    the costs.    Subsequently,    Kentucky   has requested
the Secretary     of Labor to review the Administrative        Law
Judge"s    (ALJBs) decision°      The Secretary   has accepted    the
case for review°

The audit also identified      $20444_323     which the State had not
claimed   for first week EB payments       on combined   wage claims
reimbursed   to other stateso      The Grant Officer     determined
that Kentucky   was not entitled      to the reimbursemento       The
Grant Officer's    determination     was appealed    but withdrawn    by
the state at the hearing°        Nonetheless,     the ALJ addressed
the matter   and agreed with the Grant Officer's
determinationo

StatQ of Californiao      Audit of the Federal   Share ef the
Unemployment    Compensation    Program (Audit Report NOo
04-85-095-03-315)     -- ETA disallowed   $1,157,333   in cost
exceptions0    including:

     --    $354,016    in EB benefits   paid to claimants   in excess
           of their    maximum allowable    benefit amount;

     --    $444,270    in overreporting      of   the    Federal   Share   of
           EB; and

     --    $324,759   in EB and FSC       overpayments      for
           unauthorized   payments°

     --    $34,288  in EB benefits   paid to claimants  who            did
           not have a regular   UI "parent claim"   on the
           agency"s  computer  system°

State o_ Kentuoky_       SES& Operational     Audit    (Audit Report     NOo
84-84-156-03-325)      -- Kentucky     owed $i_503_206      in interest
earned on the overnight        investment    of UI funds in local bank
accounts    for the period     7/15/82   to 12/31/84o       ETA directed
the Kentucky     Cabinet   for Human Resources       to take action to
ensure   that unreturned      interest   earned    on unemployment      trust
funds is properly      credited    to the fund°      Kentucky    appealed
ETA's decision     to the ALJo      However,    the appeal was
dismissed    because   the DOL and the State of Kentucky            reached
a settlement     agreement   without    litigationo      The State agreed
to transfer     $942,686   to the State account       in the UI Trust
Fund from State funds other than unemployment               funds°




                                   -40-
National  Urban League   (Audit Report                  MOo    02-85-078-03-350)
--   ETA disallowed  the following:

       --    $359,995     of    unsupported         wages     and    fringe     benefits.

       -     $112,096     in costs       in excess       of    budget.

       -     $5,110     in unresolved          subcontractor          costs.

Intelcom,   Job Corps Program   (Audit                 Report   NOo
0%-85-280-03-370)    -- ETA disallowed                   $235,436   in cost
exceptions   as follows:

       -    $135,589  resulting  from               inadequate        documentation         to
            support  oral or written                bids.

       -    $57,377  resulting from outstanding                       checks,  checks
            drawn but not issued,  and duplicate                       reimbursement
            of expenditures.

       -    $27,812     resulting       from       inadequate        records     to
            support     payments°

       -    $10,170      resulting      when     the    contractor       overrecovered
            indirect      costs.

       -    $4,488   resulting       from       unallowable          interest
            expended.

The audit   report also disclosed    six administrative
findings.    Since report issuance,    the agency   plans
corrective   action which should correct     and strengthen
administrative/internal    accounting   procedures.

       Management     Commitment        to   Use    Funds     More    Efficiently

During this reporting     period,  program   officials    and grantees
agreed to implement     our recommendations     to improve agency
systems   and operations   and thereby   avoid unnecessary
expenditures   of program    and administrative    funds.    Following
is one example    of management   efficiencies    which has been
implemented.

MSHA   Equipment      Testing    Fees    Updated

In an OIG audit report            issued in 1981 on the Mine                    Safety and
Health Administration's            Approval and Certification                    Center




                                        -41-
(ACC), we     recommended   that MSHA      raise the 20-year    old
equipment     testing   fees to fully      recover the costs    of
testing.

A followup   review of the ACC in 1984       (see September  1986
semiannual   report)  showed that the fees still had not been
raised°    As a result,   we estimated    that MSHA's inaction
caused the Government     to lose about $i0 million      in testing
fees since the issuance     of the 1981 report and a continuing
loss of approximately     $3 million   annually°

MSHA concluded     that all costs associated      with the testing    of
equipment   are not fully     recoverable.    However,    the updated
fee schedule    more closely    covers the actual     costs of
testing.    The revised    fee schedule    was issued May 8, 1987,
to become   effective   October    i, 19870   For fiscal year 1988,
MSHA estimates     an annual   savings   of $1o6 million.     For
future years,    the savings    will be utilized     by MSHA in other
program   areas°

_anagement     Commitments   to   Remedy   Administzative    Preblems

Non-monetary    audit recommendations       are important     because
they direct attention      to improving     internal    controls   and
operating   procedures.     They also propose       shifting   program
emphasis   and policy   direction    and :making legislative       or
regulatory   changes.    Corrective     actions    constitute
reasonable   remedies   and include     descriptions     and timetables
of specific    actions  taken,   completion     dates and evidence     to
prove recommendations     were implemented°

Following   are examples   of     significant    resolution    actions
taken by program    officials      to remedy    administrative
deficiencies:

_ollowup     on OSHA_s   Xnaction  Regarding
Morkplace     Fatalities   Recommendation

In the last semiannual        report,  OIG discussed       the findings   of
the interim     report,   "OSHA Is Not Taking Appropriate          Action
Against   Employers    With Significant      Histories     Of Workplace
Fatalities."      The-report    recommended,     among other things,
that OSHA identify       and proactively     target    for inspection
those employers     with histories     of workplace      fatalities.
Originally    OSHA did not agree to implement           this
recommendation,      saying that such a program         may not be
workable°     As discussed     in the previous      semiannual    report,
OIG felt strongly      that such a proactive        targeting   program
was needed    and requested     that the agency      reconsider    its




                                  -42-
position°    Upon reconsideration     and discussion  with OIG,
OSHA subsequently    informed   OIG that the draft directive
implementing   the proactive    fatality   inspection program  will
be completed   by November    16, 1987, and the final directive
will be implemented    as of January     i, 1988o

UI Bxperience    Rating

On August 16, 1985, we issued an audit report citing              a
decline   in the level of experience  rating in the
Unemployment    Insurance Tax system°

Our audit report recommended        that the Employment      and
Training   Administration    revise the State Employment         Security
Agencies'   reporting   of experience      rating to provide     for data
which would enable the development          and publication    of an
Experience   Rating   Index   (ERI).    This index would provide       a
measure   of the relative    degrees    of experience    rating in the
states'   UI tax systems.      We also recommended     that ETA direct
the SESAs to reconcile      their UI Trust Funds to beginning          and
ending cash balances      to verify the accuracy      of the reported
experience   rating data.

We are pleased    to note that in September    1987, OMB approved
a revised   ETA-204  experience  rating report for issuance    to
the SESASo    With this approval,    the SESAs will now be
reporting   data which will enable the development     and
publication   of an ERI.

ETA has indicated  that they are now prepared   to address   the
only remaining  recommendation   from our 1985 audit, directing
the SESAs to reconcile    their UI Trust Funds to verify   the
accuracy  of the reported   ERI.




                                 -43-
                          OFFICE    OF    INVESTTGATTONS



The Office     of Investigations         (OI) administers     an
investigative       program   within    the Department     of Labor     (DOL)
to detect     and deter     fraud,   waste   and abuse    in the operation
and administration        of DOL programs.        A primary    goal   of OI is
to increase      the economy     and efficiency      of these    programs°

Since    its inception     nine   years    ago,   OI has made     significant
progress     in administering      an effective       investigative
program.      The growing     professionalism       of the OI staff       is
demonstrated      by the innovative        approaches     being   employed_
the increase      in the number      of sophisticated        and complex
cases   and the continuing        increase      in measurable     results
being   achieved.     The graph      below    illustrates     our
accomplishments      over   the last     four years°




During   this    reporting      period,     OI's   accomplishments        included
582 indictments        and   427 successful        prosecutions.
Recoveries,      restitutions,        settlements,       fines    and cost
efficiencies,       which    are receiving        increased     emphasis,
totaled    $7,526,745      for this      period    and   $14,892,845      for all
of fiscal     year   1987.      The following        graphs    depict   the
results    achieved     this    reporting      period.




                                   -45-
                   PROSECU11VE
                             & ADMINEJl]_ATIVE
                                            RESULTS




                                                  ADI41NI_I_]IVE
                                                               ACtlOI_38




                                     CONVCllONS
                                NA1]ON_DE




                         INVI[SIIGATIVERIrCOVERIES

                                       COSTEFFICIEHClES




                           IN_S_GA17VE
                                     RECOVERIES




OI continues   to strive    for enhanced   results    through
cooperation,    support  and understanding     in its relations    with
state, local and Federal      agencies=    This is evidenced
through   the many successfuZ     joint efforts    discussed  belowo




                             -46-
EMPLOYMENT       AND   TRAINING


                            JOB   TRAINING   PROGRAMS


OI's Job Training      Partnership   Act (JTPA) investigations       are
not only focused     on ferreting    out criminality,     but also
directed    at meaningful    cash recoveries,    substantial    cost
efficiencies    and cost avoidances.       Notwithstanding    the
difficulties    in investigating     these cases, because     of the
lack of uniform     program   administration    and disparity    in
regulations    developed    by the respective    states,   OI is
committed    to maintaining    a firm and positive     presence   in
JTPA.    Case work is oriented      to recovery,   cost efficiency
and cost avoidance°

    --       A joint investigation       with the OIGs of the
             Departments    of Commerce,     Housing and Urban
             Development,    and the Audit Office of Dade County,
             Florida   led to the November       13, 1986, indictment       of
             three individuals.       They were charged with
             embezzlement,     fraud and false statements         related to
             numerous   Federally    funded programs,       including   JTPA,
             for which they were principally          responsible     for
             formulating    contracts.     The ongoing     investigation
             revealed   that Specific     Employment    and Training
              (SET), a JTPA subcontractor,        was suppose     to train
             150 participants     to process     old tires°     There    is no
             evidence   that the training       ever took place°       As of
             June 30, Florida     has deobligated      over $1.2 million
             in JTPA funds previously        earmarked    for SET°     UoSo
             v. Hope, et a_!l(S.D. Florida)

    --       Under a JTPA contract        with the City of San Antonio,
             Texas,   the SanAntonio       Alliance    of Business     claimed
             reimbursementsby       submitting     false eligibility,
             classroom    attendance    and job placement       records.
             This concealed     the fact that only 3 of 55
             on-the-job-training       participants     in the National
             Ironworkers     and Employers     Training    Program   had
             actually    fulfilled   minimal     requirements    of the
             contract.     The U.S. Attorney       declined    criminal
             prosecution;     however,    theState     demanded    repayment
             of $109,132     in DOL funds.

             !




                                   -47-
                   UNEMPLOYMENT      INSURANCE   PROGRAM


Approximately     $26 billion    dollars   annually    are expended   on
the Unemployment     Insurance     (UI) program.     Accordingly,    OI
continues    to devote considerable      investigative     attention    to
UIo   Close coordination      with the State employment        security
agencies   and cooperative     efforts   continue    to produce
significant    indictments    and monetary     recoveries.     The
nclustering"    approach   of UI cases enables       both OIG and the
States to maximize     Oils resources.

Of particular   note during this reporting      period  are several
cases in which State employees       were identified   and charged
with defrauding    UI through   internal  embezzlement    schemes.
The following   cases are representative      of our nationwide
accomplishments   during   this period°

    --    MARYLAND   - An investigation      with the Postal
          Inspection    Service   and Baltimore    Police Department
          revealed   the theft of $30,000       in UI benefits    by a
          former Maryland     Department    of Employment   and
          Training    (MDET) employee    and two accomplices.       On
          April 2, one accomplice       was convicted;    the other
          was indicted    on May 15o     The former MDET employee
          is a fugitive°      M__aryland Vo CoxL et al_      (CoCo
          Maryland)

    --    DISTRICT   OF COLUMBIA      -A   former D.C. Department       of
          Employment    Services     (DES) claims    examiner   pled
          guilty   on July 31 to a criminal         information
          charging   mail fraud in a scheme that generated
          $14,000   from three legitimate        claimant   accounts°
          Her September     14 sentencing      included   $14,000   in
          restitution°      This investigation       also resulted     in
          additional    evidence    about another     employee   who had
          been previously      indicted    for theft of $17,000      in UI
          funds°    UoSo Vo Dawkins       (Do District    of Columbia)

    --    MASSACHUSETTS      - In an ongoing     investigation   of a
          widespread     fictitious   employer/employee      Ul scheme,
          eleven more Boston-area        individuals    were indicted
          on charges    of false claims,      mail fraud and false
          representation      of social   security    numbers.   This
          brings   to a total of 22 individuals         who have been
          prosecuted    for participating      in this scheme    in
          which UI losses      are approximately      $750,000  and in
          which   restitutions    totaling    $1,275,830    have been
          ordered°     U.So Vo Littlefield,       eta!.




                              -48-
              (D. Massachusetts)

      --    TEXAS - On April 30, 25 individuals       were charged
            with UI fraud in State District      Court in Houston°
            Collectively,   the subjects   allegedly   defrauded   the
            Texas UI program    of $74,000, by claiming     UI
            benefits   while employed.    Texas Vo BurkeL et alo
             (S.D.C. Texas)

      --    UTAH - An investigation     worked   jointly with the
            Utah Job Service    disclosed   that 324 members    of the
            Utah National   Guard intentionally     withheld   wage
            data from the Utah Job Service°        As a result,    they
            received  UI benefits    in excess of $300,000.      With
            U.S. Attorney   assistance,    restitution   orders were
            initiated  to effect    full recovery°

      --    DISTRICT   OF COLUMBIA   - On April 2, 14 individuals,
            including   eight former District    of Columbia
            government    employees,  were indicted   for false
            claims and mail fraud in allegedly       having  illegally
            obtained   approximately    $64,000 in UI benefits
            between   1982 and 1985.     U.S.v.  Nash et alo     (Do
            District   of Columbia)


 UI Fraud   Prevention

 OI completed    the production     of a unique videotape,        "AoKoAo
 Allen Cleo Jones:       A Fraud Awareness      Program."     Jones,
 mentioned    in previous   semiannual     reports,   spent much of his
 life operating     interstate   fictitious     employee/employer      UI
 schemes   nationwide.     Prosecuted    five times for UI fraud, he
 has been responsible      for the loss of hundreds        of thousands
 of dollars.     In the video he reveals        system weaknesses      that
 contribute    to fictitious    employee/employer       UI fraud and
suggests    countermeasures.       OI distributed     this videotape      to
 all ETA Regional     Administrators,     State Employment      Security
 Agencies :and DOL Regional      Inspectors     General   for
 Investigations.      Copies also were made available          to other
 OIGs.


                   ALIEN   CERTIFICATION-IMMIGRATION


OI continues   to investigate    violations   of law       within the
Alien Certification    program.     Some attorneys,        representing
both applicant   employers    and aliens,   continue       to provide




                                -49-
false information     to the Department   on which it predicates
certification°      OI's investigations   have revealed     fictitious
businesses,    jobs, credentials    and statements   of salaries°
Other violations     and irregularities   were discovered,      which
include:    knowingly    hiring illegal  aliens,   avoiding   UI
taxes, avoiding     State and Federal   income taxes, and
violating   wage and hour laws.

     --    On July 10, a Los Angeles      immigration    attorney   was
           found guilty   on two counts of filing false alien
           labor certifications     at San Francisco°      He had been
           charged   in a seven-count    indictment,   which included
           mail fraud.    On September    28, he was sentenced      to
           one year imprisonment;     five years probation      and
           prohibition   from law practice,     concurrently°
           v. Garrisi   (NOD. California)

     --    On June 5, a Federal      grand jury in San Francisco,
           California   returned    a 16-count   indictment   against
           another   Los Angeles    attorney   and his client,    an
           applicant   employer°     Each was charged    with mail
           fraud and making     false statements     in a scheme to
           defraud   the alien labor certification       program°
           UoSo VSo Lew et alo (N.Do California)


PENSION   AND _ELFARE   BENEFXTS     ADMINISTRATION


The Pension    and Welfare    Benefits   Administration     (PWBA) has
program   responsibility     for enforcement    of the Employee
Retirement    Income   Security   Act (ERISA),    legislation    to
safeguard   trillions    of dollars    in assets controlled      by
employee   pension   and other benefit     plans°

While PWBA endeavors   to    obtain ,compliance with     ERISA
primarily  through civil     process, OI also seeks      criminal
sanctions°

    --    On August    4, two officers    of Tri-Core    Corporation
          were indicted    on ten-counts    of mail and wire fraud
          and embezzlement     from a pension    fund.    They were
          alleged   to have altered    and forged documents       to
          inflate   commission   fees and defraud     the pension
          fund and insurance     company   of approximately
          $707,000°     The defendants   are awaiting     trial   in
          this matter.     UoSo v. Strothman     and Shehan     (NOD.
          West Virginia)




                              -50-
       --    On May 5, an investigation       with the Postal
             Inspection    Service   culminated    in the 15-count   mail
             fraud indictment      of an ambulance    service  operator.
             He falsely    billed the United Mine Workers       of
             America   Health Retirement     Funds on approximately
             900 dates, participating       in a fraud exceeding
             $199,000.     On August   10, he pled guilty to
             two-counts    and is awaiting     sentencing.    U.S.v.
             Merchant    (W.D. Pennsylvania)

       --    On May 29, the administrator          of several pension    and
             profit sharing     plans pled guilty to two-counts        of
             embezzling   approximately      $125,000    from two trusts.
             He made unauthorized       fund transfers     from the plans
             to operate   his real estate firm.          On July 31, he
             was sentenced    to one year and one day imprisonment,
             followed   by five years probation,         and ordered  to
             make restitution.       This successful      prosecution  was
             attained   through    a joint effort     by the Seattle
             Office of PWBA and OI.         U.S.v.    Watson   (W.D.
             Washington)


EMPLOYMENT        STANDARDS     ADMINISTRATXON


The Employment    Standards    Administration    (ESA) has three
primary  program   areas:    the Office of Workers'      Compensation
Programs   (OWCP), the Wage and Hour Division         (WHD) and the
Office of Federal     Contract    Compliance  Programs    (OFCCP).


              OFFICE     OF WORKERS'       COMPENSATION   PROGRAMS


The Division    of Federal   Employees'    Compensation    (DFEC)
within OWCP provides     disability    income and medical
protection    for approximately    3.3 million    Federal   employees
at a cost exceeding     $1.2 billion.      OI developed    several
investigative    initiatives    to reduce medical     provider   and
claimant   fraud in the DFEC program.


DFEC    Medical     Providers

       --    Multi-count    Federal   indictments    were returned    on
             May 15 in,Houston,     Texas against     four physicians,
             charging   them with making     false statements    in
             claims for Federal     employees    compensation.     The




                                    -51-
             defendants    were identified    during the course of      a
             project   with the Postal    Inspection   Service    to
             review FECA billing     practices    by Houston   area
             medical   providers°    UoSo v__parker±_EEp_erson±
             Armstrong±    Athari  (SOD° Texas)

       --   On September     9, criminal     complaints    were filed in
            Long Beach,     California    against    three pharmacists
            charging    them with false statements         and theft°
            According    to the complaints,       the pharmacists
            submitted    fraudulent    bills to OWCP for name-brand
            drugs,   when in fact they substituted          them with
            generic   equivalents°      UoSo_Vo_Lee_x     Rubinz Ei-Mashi
            (CoDo California)


DFEC    Claimant   Fraud

       --   A former   Drug Enforcement   Administrator    Special
            Agent was indicted    on July 18 for failure     to report
            his income as a private     investigator,   while
            receiving   over $160,000   in OWCP benefits°      UoSo Vo
            Talak   (Do Arizona)

       --   A former   UoSo Air Force employee     was indicted    for
            failure   to disclose   his employment    and earnings
            while receiving    a $56,252 overpayment°      He pled
            guilty   to three counts of filing false statements
            to claim OWCP_ was sentenced      to five years
            probation   and ordered   to make $11,956    restitution°
            UoSo Vo Maestas    (Do Colorado)

       --   On April    14 a former FBI Special   Agent was indicted
            for failing    to report his income as a self-employed
            distributor    of wood shavings°    UoSo Vo Freeman
            (CoDo California)

       --   A former   Defense   Logistics   Agency    (DLA) employee
            received   a three-year    suspended    sentence,   three
            years probation,     and ordered    to make restitution     of
            $40,000   for filing   false claims for FECA benefits°
            The DLA and OI investigation        disclosed   he was
            working   in his family business°        Additionally,    in a
            civil actions    a judgement    of $35,000 was levied
            against   him as a civil fraud penalty°         UoS_ vz
            Howser   (EoDo Virginia)




                               -52-
                       WAGE   AND    HOUR   DIVISION


The Wage and Hour Division         (WHD) enforces   the provisions   of
the Fair Labor Standards       Act and laws such as the
Davis-Bacon   Acts which insure that workers         are paid minimum
or prevailing   wagess    particularly    when Federally    funded
construction   contracts     are involved°     WHD has traditionally
relied upon administrative        remediess   such as withholding
funds from contracts     when contractors      are found in violation
of the Davis-Bacon     Act and refuse to correct       the wage
underpayment°     With the assistance       of WHDs OI investigated
the following   contractors     who violated    criminal  statutes°

    --    On July is the president      of a construction      company
          pled guilty    to a superseding    criminal   information
          charging   mail fraud and false statements°          He had
          submitted   falsified   payroll   certifications    to the
          UoSo Coast Guard in conjunction        with a
          heating/plumbing    contract    at Governor°s    Islands    New
          York°    On July 15s he made full restitution         of
          $97s196 to the Department°        UoSo Vo Sciacca      (EoDo
          of New York)

    --    On July 13t two officers        and a corporation     pled
          guilty   to informations     charging   conspiracy    to
          defraud°     As subcontractors     serving the UoSo Postal
          Service_    they submitted    falsified   payroll
          certifications°      On September     4, they were
          sentenced    to five years probation      and an $85s400
          fine°    Additionallys    they were debarred      from doing
          business   with the government      for three years°       UoSo
          Vo Choops_z_et a!_ (Wo Do New York)

    --    On July 17s a construction       company   and its owner
          pled guilty    to a criminal    information    charging
          false statements°      The firm_ serving      as both the
          prime and subcontractor      on several    government
          contracts   in the Buffalos     New York area_     routinely
          submitted   falsified   payroll   certifications°       The
          corporation   agreed to make $64,000       restitution°
          U°S. Vo Municipal     Contractz   et al (WoDo of New
          York)




                              -53-
                       ETHICS   AND     INTEGRITY   ISSUES



Employee    ethics    and integrity      awareness     is a continuing
priority    of the Inspector       General°      During    investigations         of
integrity     related    matters   which    involved    use of ADP or
computer    related    equipment    in furtherance       of the crimes       it
was noted    that   in several     instances     the DOL employees
involved    had prior     criminal    convictions°

The   Inspector     General     alerted    the Assistant     Secretary     for
Administration        and   Management     of the need    to review     the
position     sensitivity       levels   of certain    computer    related
positions°       This    resulted     in required   background      inquiries
that   should    better     identify    those  individuals     with    criminal
backgrounds      prior    to hiring°

Ethics    training     also   received    special    attention    during   this
period°      In Aprils     OIs with    the assistance       of MSHA
Headquarterss       monitored     ethics   training     given  to newly    hired
mine   inspectors°        Several    recommendations       for improvement
were   made   by OI and are to be implemented             by MSHA    at future
training     sessions°




                                 -54-
                       OFPXCE    0]_ LABOR     RACK_TEERX_G



The Office      of Labor     Racketeering       (OLR)    investigative       program
has successfully         implemented      its long-range        initiatives
designed     to identify       and reduce     racketeering        activity     in
employee     benefit    plans,     labor-management         relations,      and
internal     union   affairs°       Investigative       efforts      continue     to
concentrate      on employee       benefit    plans,    which     are considered
the area    most    vulnerable      to criminal      exploitation°         In
addressing     this    area of abuse,       OLR has expanded          its focus
from the traditional          organized     criminal      element     to include      a
new generation       of racketeers--accountants,              attorneys,
bankers,    fund    administrators       and   investment       advisors°     During
the past    fiscal     year,    50 percent     of the investigative
program    was dedicated        to employee      benefit     plan   corruption       in
support    of the Department         of Labor's      goal    of protecting        the
pension    and welfare       benefits    of the American         worker°

During    this    reporting   period,    the UoSo Department       of Justice
appointed      all qualified     OLR Special      Agents  as Special     Deputy
UoSo   Marshals      on a trial   basis    for 1 year°      Such authority
has added      demonstrably     to the   effectiveness      and efficiency
of OLR field       operations    by enabling      agents  to use firearms,
make   arrests,      and execute    search    warrants°     OLR now   is
better    able    to continue    those   enforcement     efforts   that   are
potentially     hazardous    to agents     and cooperating         third
parties°     While   this temporary       authority     has proved
beneficial,     it does   not   adequately      meet   OLR's    need   for
permanent    law enforcement       powers    necessary     to ensure      success
and credibility°        In this    regard,    the Inspector        General    will
continue    to advocate    legislation       that would      afford    full
statutory    law enforcement      authority      for OLRo

Joint    investigations        with    Federal,    state,    and local     law
enforcement       agencies     enable     OLR to leverage       limited
resources      against     the most     significant      labor   racketeering
problems°       To assist      these    agencies    in acquiring       diagnostic
skills    in labor      racketeering,        OLR has developed        a 2-day
training     seminar,      which    incorporates      relevant     statutes,
investigative        strategies      and techniques,        and case    studies°
One seminar      was    conducted      in Princeton,      NoJ°,    and two
similar     sessions     are scheduled        to be held     in California      and
Missouri     during     fiscal    year    1988o

During    this    period, OLR  investigations     established   a
predicate      for the potential    civil   recovery   of approximately
$18 million°




                                   -55-
OLR investigations                    resulted  in 87 indictments                           and 61
convictions  du[ing                   this reporting  semiannual                           period°

As shown in the graph below_   fiscal year 1987 (October is
1986_ to September   30_ 1987) convictions   increased 62°5
percent to 91 in FY 1987 compared    to 56 in FY 1986o   The
number of indictments   in FY 1987 increased   to 115 from 114
in the prior year o

     c_                                                                                ACTIONS


     _co,                                                                              _         INDICt"k4 F'NTS

                                                                                                 CONVICTIONS



     'll,,¢_.




      _:_.



      I2tD.



        @,
                                 _                      1 _7'
        INDfCT_D,f'TS    ,_   CONVICTIONS    F'OR   I_SCAL      Y'_.A,q_   1_8_-1_7



Significant             cases       for     this. period               follow.


                                      EMPLOYEE         BENEFIT             PLANS

Southern          Florida         Hotel      & Culinary                Workers        Union       Welfare          Fund


Miguel   Recarey_    Jro_ president      of International   Medical
Center    (IMC)_ was indicted       on April 8_ 1987, by a Federal
grand jury in Miamit Flao_ on one count each of conspiracy
to pay kickbacks_      paying    kickbacks   to obtain a contract     with
the Southern     Florida    Hotel and Culinary     Workers  Union
Welfare    Fund to provide      health ,=are to the Miami-based     Hotel
Employees    and Restaurant      Employees   Union Local 355 union
members_    bribing   a potential     government   witness_  and
obstruction     of justice.      IMC is one of the country's      largest
health maintenance       organizations     (HMO) providing   care to
Medicare    beneficiaries°




                                               -56-
Also included     in the conspiracy    count were Antonio
Fernandez,   former president     of local 355 and a benefit      fund
trustee;   Marian. Villa DelRey,      former director   of personnel
for Dotal Properties      of South Florida who reports     to the
chairman   of the management     trustees   of the union's   health
and welfare    fund; and Jorge Recareys      brother  of Miguel
Recareys   Jr.   DelRey   was additionally    charged  with one count
of accepting    kickbacks°

The indictment     charged   that between     November    1980 and
November   1982, the four defendants        participated      in a
kickback    scheme involving     approximately     $115,000    in payments
from Recarey,     Jr., to DelRey and Fernandez         for their
influence    in helping    IMC obtain    a 5-year contract      with the
local 355 health and welfare         fund°    Jorge Recarey     was also
charged   with assisting     his brother    to launder     the $75s000   in
payments   to Fernandez°      Recareys    Jr., allegedly      hired
Fernandez'     son to work at IMC with the intent to influence
Fernandez    not to testify    before a Federal      grand jury°

The investigation      by OLR leading  to this indictment
continues.    UoS.    v. Recarey_z et al. (S.Do Florida)


Connecticut     Teamsters    Dental    Health   Plan

Fifteen   defendants     charged   with racketeering      and
embezzlement     regarding    International     Brotherhood    of
Teamsters    (IBT) local employee       benefit   plans in Connecticut
have pled guilty to or been convicted            of varying    charges  in
UoSo District     Court in New Haven° They had been charged on
June 27, 1986, with racketeering           consisting    of multiple   acts
of embezzlement,      principally     involving   dental   treatments
totaling   about    $130s000   to ineligible     persons   that were paid
for through    submission     of false records°

Anthony   G. Rossetti,     the highest     ranking Teamster      official
in the State, and three others pled guilty on April 10s
1987, to charges     of embezzlement.        Rossetti    held four
Teamster   positions:      Secretary-treasurer       of Teamsters      Local
191, chairman    of the IBT Tri-State        Joint Funds trustee        of
the New England     Teamsters    Pension    Fund, and president        of
Joint Council    64.    On May 13, two other major defendants              in
the case--Vincent      Pisano,   the second highest-ranking
Teamster   official    in Connecticut,      and Carol Rizzieris       owner
of Teamsters    Dental   Office    Company--were     convicted    on
racketeering    and embezzlement       charges.     During   May, guilty
pleas to misdemeanor       charges   of false record keeping         in
violation   of the Employee      Retirement     Income   Security    Act




                                -57-
 (ERISA) were entered       by the following     Teamster    related
defendants:      Joseph    M. Robertos    business   agent for local
191; Mario Salvatores        president    of local 191;     Phillip
Guarnaccias     secretary-treasurer       of local 493; George
Lamontagne_     president     of local 677; Patsy Ravaleses
administrator     for Tri-States      Legal Services;     Stacia Altieris
former   fund manager      for local 191 health      services   and
insurance    plan; and Peter Suscas        secretary-treasurers      local
1035o    Johanna    Pisano   and Louis Jo Mario_ pled guilty to a
felony violation      of concealing     a crime in which they
participated°       UoSo Vo Rossetti      et alo    (Do Connecticut)


Sheetmetal    Workers Local 38 and United Wirer           Metal   & Machine
Workers   Local 810 EmR!oyee  Benefit  Plans

A 145-count     Federal    indictments     involving   the embezzlement
of over $14 million        from the benefit       funds of Sheetmetal
Workers   Local 38 and United Wires           Metal and Machine     Workers
Local 810 of the Teamsterss           was filed June 15s 1987s in
Brooklyns    NoYos against       Mario Rendas president       of First
United Funds and Martin          Jo Schwimmers     an authors   professor
and financial      advisor    registered    with the Securities      and
Exchange   Commission°       The massive     racketeering     conspiracy
alleges   that the defendants         used First United as a
racketeering     enterprises      ands along with the embezzlement
countss   counts    include    mail and wire frauds       illegal   payments
to union officials       and obstruction       of justice°

First Uniteds  with headquarters     in Garden Citys NoYos was
once the countryWs   largest  money brokerage    house°    It is a
broker  for the investment   in certificates    of deposit    (CDs)
issued by banks and savings    and loan associations      throughout
the country°   First United's    biggest  customers   were the
benefit  funds of the two unions°

Allegedlys    the scheme to defraud     the benefit     plans arose
from Schwimmergs     role as financial     advisor    to the benefit
plans of the two union locals°         Through    First Uniteds     the
benefit   plans invested    approximately     $i00 million     from 1981
through   1984 in long-term     CDSo   Renda and Schwimmer        invested
the money in long-term      CDs issued by small banks and savings
and loan associations      across the country°       They allegedly
diverted   more than $14 million      in commission     payments    from
the banks to a series of off-the-books          accounts    that were
concealed   from the auditors     of First United      and the trustees
and members    of the two locals°      The money allegedly       went
into brokerage    accounts   in the names of Renda and Schwimmers
to stockholders    ° loans to corporations      the defendants




                               -58-
controlled,     and for the purchase        of various   personal     items,
including    a Rolls   Royce,    diamonds,    and $3 million     in stocks
and bonds°     The defendants       allegedly    also made   illegal
payments    to unnamed    officials     of local    810 to influence
decisions    regarding    the investment      of the benefit     fund
money°

The     indictment      seeks    the    forfeiture         from    the   defendants      of
more   than   $22 million     in profits    from the scheme,        including
forfeiture     of over    $14 million     in cash,    a jet airplane,        the
$3 million     in stocks    and bonds    and other     luxury    items    that
were   purchased    with   the proceeds     from   the defendants'
alleged    criminal    activities°     The government       also    seeks    the
forfeiture     of Renda's     i00 percent    interest     in First     United
Fund,   Ltdo

Joseph    DeCarlo,    vice   president    for First    United,    had pled
guilty    on June 6, 1987,       to a 2-count     information     that  he
conspired     to pay off officials        and others    to influence     the
placement     of investments      of local    810 employee     benefit   plans
and that     he caused    the false    filing    of First   United's    1982
corporate     tax  return°      He has agreed     to cooperate     with  the
government°

Sheetmetal     Workers    Local   38, with     headquarters      at 898
Washington     Street,    Peekskill,     N,Yo,    has about     650
participants      enrolled     in four   benefit     plans°     IBT Local    810,
located    at I0 East     15th   Street,    New York,     NoYo,    has about
7,000   participants      in three    benefit    plans°

These     indictments      are    the    result      of    a continuing        2-year
joint   investigation           by OLR,  the      IRS and         the FBIo      UoSo    Vo
Schwimmer    and Renda          and UoSo  Vo      DeCarlo          (EoDo New    York)



Hotel_Emp__yees       & Restaurant             Emp!oMees      Local      109   Retirement
and Welfare     Funds

James   Carl Benjamin,       former    trustee    of the Newark-based
Hotel   Employees     and Restaurant       Employees      Union     (HERE)   Local
109 benefit     funds    in New Jersey       and former      president     of HERE
Local   3, and James      Wellington      Brown,    former    vice    president
of the Midlantic       National     Bank   of East Orange,         NoJo,   were
indicted    by a Federal      grand    jury   in Newark      on September       22
in a 29-count      indictment     involving      the   embezzlement       of
$500,000    from the     HERE Local     109 Retirement        and Welfare
Funds°




                                        -59-
The defendants   were charged    with 14 counts of embezzlement
from the benefit    planss   1 count of conspiracy   to embezzle0   2
counts of bank frauds      and 4 counts of making false entries
on bank records with intent to defraud°        Benjamin   was
additionally   charged   with four counts of income tax fraud°
Brown was also charged      with three counts of receiving
commissions  or gifts as a bank official      for procuring   loans
and one count of violating      the Currency  and Foreign
Transaction  Reporting    Act°

Allegedlys     from January    I_ 1983_ to December      23_ 1985_
 Benjamin   and Brown used a variety       of schemes    to embezzle
money from the local 109 fundss including            obtaining     false
and fraudulent      loans at Midlantic     and then repaying       them by
wrongfully     liquidating   certificates     of deposit    that belonged
to local 109's benefit       funds;   repaying   Benjamin's     personal
loans at Midlantic       with the proceeds     of the false and
fraudulent     loans at the same bank; purchasing         a 1981 Lincoln
Mark IV for Brown with the Retirement           Fund's money;      repaying
a real estate loan from Midlantic          to both defendants       with
the Welfare     Fund's money;    funding   a corporation     to purchase
a night club with assets from the Retirement             Fund; and
withdrawing     from Midlantic    approximately     $319_352    in cash
belonging    to both Funds°

Locals  3 and 109 were merged       into local 3 in 1981 and now
represent  approximately     900 hotel and restaurant     employees
in the Newark   area°    Howevers    the employee benefit   plans for
local 109 remained    separate    and cover approximately     300
union members°

This investigation     was conducted    jointly   by OLR_ the UoSo
Department    of LaborOs   Pension  and Welfare    Benefits
Administrations     the UoSo Attorney's    Office   and the FBIo
UoSo Vo Benjamin     and Brown   (Do New Jersey)


Allied   International    Union   of   Security   Guards   and   Special
Police

Mitchell   Goldblatts    an attorney    who represented     the pension
and welfare    funds of the Allied      International     Union of
Security   Guards and Special      Police   (Allied) and the
Federation   of Special     Police and Law Enforcement        Officers
and the unions was convicted        on June 8_ 1987s in District
Court in Brooklyn,      NoYo_ of participating      in a scheme to
defraud   the benefit    funds of approximately       $590_000    by the
use of worthless     certificates    of deposit°




                               -60-
He was found guilty of one count of conspiracy          under the
Racketeer    Influenced and Corrupt   Organizations     (RICO)
statute   and 14 other counts,   including    obstruction    of
justice0   embezzlement  from employee    benefit   funds_ and
accepting   kickbacks°

Goldblatt    was the last remaining    defendant   in a major
investigation     by OLR that involved   Michael   Franzese,  a
reputed   highly placed member    in the Colombo    organized   crime
family   in New York and two former presidents       of Allied°     The
other defendants     pled guilty  in 1986 and have been
sentenced°     Goldblatt  was sentenced    to serve 6 years in
prison  and is barred from holding      any union or employee
benefit   plan position   for 13 years°     UoSo v. Goldblatt     (EoDo
New York)


Ironworkers   Local   7

Fifteen  present or former members      of Iron Workers   Local 7 in
Boston_  Mass., and a company    official   were indicted   on
August  26, 1987, on charges of conspiring      to use false
social security  account  number    information  and to violate
ERISAo

A 17-count   Federal    indictment  charged   each of the defendants
with collecting     salaries   under a false name and social
security   number from Y & M Steel Contractors,        Incog which
had a contract    with local 7.     Allegedly,    over $150,000  in
illegal wages were received°

The defendants     are:    Robert Allen,   George Bradley,      Michael
L. Connerty_     Robert Crawford,     Leon Gaines_   Patrick    J.
Gibbons,   Leroy Hicks, Edward Co Hopkins,         Maurice   J.
Houlihan,    Joseph McWilliamsw     Colin P. Moore,     Michael
Mugford,   Joseph    E. Neulist,   William   H. Pottle,    John Reaves,
and Wiliam Wischertho        Except   for Allen_ who worked      as a
construction     supervisor    for Y & M, the defendants       are
present   or former members      of local 7 who worked on
construction     projects   in the Boston    area°

According   to the indictment,     from about January     1983 to June
1984, the men submitted      W-4 forms containing     assumed   names
and fictitious    social  security   numbers   to Y & M Steel°      Each
of these W-4 forms claimed      exempt   status  so that no taxes
were withheld    from the wages.     In many instances,     the
defendants   allegedly   continued   to receive   unemployment
benefits   under their real names while working        and being paid
under the pseudonyms°      The false information      submitted   by




                              -61-
the defendants   to their employer  allegedly   caused   the
employer  to submit false remittance    information    to the
local's  welfare  plan in violation  of ERISAo

Iron Workers    Local 7 represents    approximately   i_950 union
members   in the Boston    area°   Y & M Steel Contractorsr     Incos
of Detroits   Michigan_    has employed   union members   in major
construction   projects    in the Boston   areas including   the
Marriott   and Westin   hotels°

This investigation     was conducted    jointly   by OLR and the FBI_
with assistance    from the Enviornmental       Protection Agency
Office of Inspector     General°    UoSo Vo Allen et alo (Do
Massachusetts)


Teamsters   Local   436 Pension   and   Welfare   Fund

Two more defendants    were convicted  and two more pled guilty
in the 5-year   investigation   by OLR of corruption    involving
Teamsters  Local 436 and its affiliated    benefit   plans°

Salvatore    _Sam" To Busacca_    president    of Teamsters   Local 436
in Cleveland_     Ohiow and chairman    of the board of its
associated    welfare   and pension   plans_   and Deborah  Ao Hanson_
office manager     for the fundsr were convicted       on August 21,
1987: after a 3-month      trial_   on charges   involving
embezzlement     of approximately    $66_000   from the union and the
funds°

Busacca   was convicted     on two counts   of violating    the RICO
statutes    five counts of embezzling      labor union and benefit
plan funds totaling       $57r0650 one count of receiving       $20_000
in unlawful     payments   from a service   providers   three counts
of mail fraud_      one count of falsifying     records   required   by
ERISA_   and four counts of filing      false Federal     income tax
returns°     Hanson was convicted     on two counts of embezzling       a
total of $9_062 from the benefit        plans_   one count of making
false statements      in documents  required    by ERISA_   and two
counts of mail fraud°

An April 1986 indictment    had charged     Busacca   with 39 counts
and Hanson with 14 counts     regarding    the embezzlement     of over
$125_000  from the operating    expenses    of the local and the
benefit  funds and causing   the payment     of fund benefits     to
persons  who were not entitled     to receive    them°    Busacca  had
also been charged    with soliciting    and receiving     payoffs
totaling  approximately   $40_000   from companies     under contract




                              -6,2-
to local    436   to allow  them  to understate               their   required
contributions      to the benefit   plans.

On September      iI, Joseph      Marrali,     owner    of M&M    Seamless
Gutters    of Maple     Heights,     Ohio,    pled   guilty    to three     counts
of embezzling       approximately       $27,000    from    the fund,     one count
of conspiracy       to embezzle,      and one count       of falsyfying
records    required     by ERISAo       His co-defendant,        Eugene
Gallina,    a former     Thistledown       Racetrack     employee     in
Northfield,      Oho,   pled   guilty    on September       15 to four      counts
of embezzling       approximately       $43,000    from    the fund and one
count    of conspiracy.        Both   had been     charged     in September
1986   in a 22-count       indictment      involving     the embezzlement        of
approximately       $I00,000    by sumitting       false    medical    claims     to
the local     436 Welfare      Fund.

These   four   defendants     bring    to 14 the number     of persons
convicted     in this    investigation°        IBT Local   436   represents
about   3,000   construction      drivers     and building    material,
excavating     and  race    track   employees     in the Cleveland      area°
UoSo   Vo   Busacca    and    Hanson      (NoDo    Ohio)


                             INTERNAL      UNION    AFFAIRS


Iron   Workers    Local      357

Three   officials     of Iron Workers      Local    357 in Springfield,
Massachusetts,       were  indicted    May   5, 1987,    by a special
Federal    grand   jury   for embezzling       over  $330,000--the     largest
dollar    amount    in a labor    racketeering      indictment     in New
England    history.

Charges    of conspiracy       and   record    keeping   violations       were
also   included     in a 22-count       indictment     against    Robert     Eo
McNulty,    business     agent    for   the local;     Gerald    To Callahan,
financial     secretary-treasurer;          and James     Jo Kennedy,
president.       The  indictment      charges     that  the three      defendants
diverted    employer     contributions        to pension,     health    and
welfare,    annuity,     vacation,      and apprenticeship         training
plans,    and payments       of withheld      dues money     to their       own
personal     benefit.       Then,    to avoid    detection,    McNulty
allegedly     made    false    entries   in union     records°

The defendants     are charged      with  embezzling    union   funds  by
drawing  checks    totaling     at least   $260,000   payable     to
McNultyo    Additionally,       they   are charged   with   purchasing
official  bank   checks    with    union  funds   for their    own use or




                                        -63-
the use of others.           UoSo   v°     McNulty   et   alo   (Do
Massachusetts)


                                         OTHER

Wedtech

Racketeering       and racketeering          conspiracy      charges    involving
the awarding       of contracts        to Wedtech,       a military     contractor
in Bronx     County,     NoYo,    were    included      in a 58-count
superseding      indictment       returned      June    3, 1987,    in the case     of
UoSo   Vo Stanley       Simon,     (SoDo   NoYo)     and include     UoS°
Congressman      Mario     Biaggi     (D--NY), former      Small    Business
Administration         (SBA) Regional        Administrator       Peter   Neglia,
former   Wedtech      Chief    Executive      Officer     John   Mariotta,     former
Wedtech    counsel      Bernard     Ehrlich,     Richard     Biaggi    (Congressman
Biaggi's     son),    Ronald    Betso,. and Simon,         former    Bronx   Borough
president°

The indictment     alleges    that Wedtech      officials     made   illegal
payments    to public    officials     to facilitate,      receive,    or
maintain   government     contracts.      More    than 90 percent      of the
company's    gross   revenues    were   derived    from   Department     of
Defense   and UoSo    Postal   Service     contracts°

Under    the RICO     statute,     Congressman      Biaggi    was charged    with
having    committed      seven    racketeering      acts;   Neglia   with   five;
Mariotta     with   eight;     Ehrlich    with   seven;    Richard   Biaggi   with
four;    Betso   with    two; and Simon       with   three°

Congressman       Biaggi    and Ehrlich      are charged      with    allegedly
demanding      and   receiving     5 percent,      or 225,000      shares    of
Wedtech's      outstanding      stock    in or about      mid-1983     by
threatening       to withdraw      the law firm of Biaggi           & Ehrlich
 (B & E) from      representing       Wedtech    and the SBA's        support    of
Wedtech    unless     their    demands    were   met°     Richard     Biaggi
allegedly      concealed     his   father's     acquisition      and receipt       of
112,500    shares     of Wedtech      stock    (one-half     of the 5 percent
demanded)     by having      the stock      issued    in his name,       and later
having    proceeds      of the sale      of 25,000     shares    of this stock
deposited      in an account       in his name°        The remaining        112,500
shares    were    allegedly     issued    to Ehrlich°

Congressman     Biaggi    and Ehrlich      also allegedly     demanded    a
$50,000    payment,    disguised     as legal     fees paid   to B & E, for
having   assisted    Wedtech     by contacting      New York   City
officials°      Biaggi    also   allegedly     failed   to disclose    his
receipt    and sale    of Wedtech     stock: in his Ethics       in




                                    -64-
Government       Act-Financial    Disclosure    Statements      for   the   years
1983,   1984     and 1985.

Congressman     Biaggi,    Mariotta,     Neglia,    Ehrlich    and Richard
Biaggi    also  allegedly     participated      in a scheme      to defraud
the SBA by executing         a sham   stock    purchase    agreement    that
was   submitted    to SBA as part       of a scheme     to misrepresent
that Mariotta      owned   more   than 50 percent       of Wedtech's     stock,
as required     under    the SBA's    Section     8(a) program°      Mariotta
also   is alleged     to have    participated      in making    illegal
payments     to Simon,    Mario   Biaggi    and Negliao

Neglia     is  also charged      with  demanding     that Wedtech    pay
$3,000     to  Republican     organizations      on his behalf     and that
one-half      of his prospective       salary    as an attorney     employed
by B &     E be paid    by Wedtech.       Allegedly,     with  the assistance
of his     friend   Betso   who   is also    charged    in this count,     he
demanded      a stock   option    for 20,000     shares   of Wedtech    stock
issued     in Betso's     name.

Simon   allegedly      demanded    and received  a job       and salary
increases    from     Wedtech   for his brother-in-law          and
approximately        $50,000  in cash,   charitable     and    campaign
contributions,        and expenses   from Wedtecho

Congressman    Biaggi,   Neglia,     Betso   and   Simon   also   are charged
in separate    counts   with   violating     the   RICO   statute   by giving
allegedly   false   statements     to Federal      investigators     or false
testimony   to the Federal      grand    jury.

Each   of the 25 racketeering       acts   are also   charged    as
separate    crimes    of extortion,    bribery,   bribe-receiving,     mail
fraud,   wire   fraud   and obstruction     of justice    as they relate
to each defendant,       bringing   the total   counts    to 58 overall°

The continuing      investigation      of Wedtech    is being    conducted
by OLR,    the FBI,    the SBA Office     of Inspector      General,     the
IRS,   the Defense     Criminal   Investigation      Service    of the
Department     of Defense     and  the New York     City  Police
Department.      OLR   is coordinating      the various     Federal
investigations      of Wedtech    for   the U.S.    Attorney's     Office    in
the Southern     District     of New York,      U_S. Vo Simon      et alo
 (S.D. New York)




                                  -65-
  0_XC_    O_ _SOURCB        MANAGEMENT    AND    L_GISLA_XV_     ASS_SS_


This section describes      several activities   of the Office of
Resource   Management   and Legislative   Assessment   (ORMLA) that
are mandated    by statute   or that the Inspector   General  has
deemed   important   for achieving  the mission   of the OIGo


               LEGISLATXVE     AND   REGDLATORY      ASS_SS_

During this reporting     period,  ORMLA reviewed    or commented   on
473 legislative     and regulatory   items in carrying   out its
responsibilities     under Section  4(a) of the Inspector     General
Act of 1978.     The most significant     are summarized  below°

OXG   LEGISLATXVE    AG_DA

As part of the Department's      legislative    process    for calendar
year 1988, the OIG has proposed       several    legislative
initiatives   that address    its concerns    and are designed     to
improve program    operations.    These proposed      legislative
items have been forwarded      to the Department      for review and a
determination    as to whether   they will be transmitted        to the
Office of Management     and Budget and included       in the
Administration's    legislative   package°     The items proposed
included   the following:

   Law Enforcement      Authority    for   Labor    Racketeering     Special
Agents

OIG continued     its endorsement    of legislation   to provide    full
law enforcement     authority   for Office of Labor Racketeering
special   agents.    This authority    would permit   special   agents
to make arrests,     administer   oaths to witnesses,     carry
firearms   and execute    search warrants.     The lack of law
enforcement    authority   impedes the ability     of OLR special
agents to perform     many of the traditional      law enforcement
responsibilities     and presents    a real problem   of safety°

As a temporary   stop-gap  measure,   the Department    of Justice
has provided   a one-year  deputation   of OLR special    agents°
While it is helpful,    a permanent   legislative   solution   is
necessary.

Prior congressional    hearings   and accompanying              reports   from
the Senate Labor and Human Resources        Committee            and the
Permanent  Subcommittee    on Investigations     have           supported   the
proposal  for law enforcement     authority°




                                 -67-
   Xmplement    Recommendations      of   the   P_esident"s   Commission     on
Organized    C_ine

In order to deprive      organized   crime of its economic   bases,
the President's     Commission    on Organized  Crime recommended
several   legislative    proposals   pertaining  to the Department
of Labor°     Actions   supported   by the OIG include  the
following:

 -- To enact a labor-bribery    statute  by           amending  the Labor
    Management    Relations Act to prohibit            the purchase  of a
    union or a union office, or the sale              of the right to
    obtain   union work;

 -- To amend Section     501 of the Labor Management    Reporting
    and Disclosure    Act (LMRDA) to give the Secretary
    authority_   on behalf   of union members,   to enforce   29 USC
    501(a) without    a specific   complaint and to remove,     if
    necessaryF   fiduciaries   who have breached   their fiduciary
    responsibilities;

 -- To amend Section  209 of the LMRDA to make delinquent                   and
    false reporting  of union activities a felony;  and

 -- To amend the LMRDA to prohibit   persons convicted  of any
    crimes  in Title V and VI of the LMRDA from holding   any
    union office   under Section 504 of the LMRDAo

The Department's    Policy Review Board has approved    these
proposals   as part of the Department's     response to
recommendations    of the President's   Commission°

o Independent  Public Accountant   (IPA)           Audit Reports    Under
ERXSA to be covered   by the Provisions            of the Single    Audit    Act


The Pension    and Welfare   Benefits    Administration     (PWBA)
administers    the Department's     responsibilities     under Title         I
of the Employee    Retirement    Income Security     Act (ERISA) of
1974_ which includes     regulatory     enforcement,    research,
reporting   and public   disclosure    activities°

ERISA requires    an IPA opinion   on the financial  statements              of
pension   and welfare  benefit   plans which cover 100 or more
participants°     IPA audit reports   are issued annually°

The legislation   being requested    would   require  that these
audits be subject    to the provisions     of the Single Audit Act
of 1984 and designate    the DOL/OIG    as the cognizant   agency




                                  -68-
with audit      oversight     responsibility       for   the    quality      of these
audits°

(_R    LEGISLA_XON

The following   bills are          proposed     legislation      of    particular
interest  to the OIG:

O Bobbs   Act    Amendment

The OIG supports      legislation    that would nullify     the effect
of Supreme    Court"s   decision   in United States v. Enmons 410
UoSo 396(1973)     by amending    18 USC 1951 to make clear that
the Hobbs Act punishes        the actual   or threatened    use of force
or violence     to obtain property      as part of a labor-management
dispute.     The Department     of Justice    has sought this result
for over a decade and in the 99th Congress            strongly
supported    So 1774, a bill introduced        by Senator Dole that
would accomplish      this purpose    without   banning   incidental
picket   line violence     and threats°

o Computer      _atching     and   Privacy    Protection       Act    of   1987

The OIG reviewed     the Senate-passed      version   of So 496 and
supports  the general     intent of this bill.        While So 496 is
much improved    over an earlier     version    that was introduced     in
the 99th Congress,      we raised concerns      that we believe   need
to be addressed     by the proposed     bill.     In particular,
Section 4 of the bill would establish           a Data Integrity    Board
in each agency    conducting    or participating      in a matching
program.   The responsibilities       of this Board would include
the review and approval       of agreements     to match or to
disclose  agency    records°

we believe    that this section    conflicts    with the necessary
independence    of the Inspectors     General   by impinging    on IG
authority   to determine    the manner    in which audits and
investigations     are conducted   and the choice of the most
appropriate    methodology.    This could effectively       preclude   or
sharply   limit the use of a very important         and efficient
fraud, waste and abuse detection        technique°     The Office of
Management    and Budget and other Offices       of Inspector    General
have also raised concerns      about this issue.

o Inspector      General     Act   Amendments     of   1987

We support      the Senate-reported    version  of So 908, the
"Inspector      General  Act Amendments    of 1987," and the intent




                                    -69-
  of this     proposed legislation.   We do, however_             have   some
  concerns     about a few of its provisions.

  In particular,    the proposed   bill's focus on reporting        audit
  statistics   may serve to emphasize     statistical
  accomplishments    over more important     contributions_     such as
  improving   the delivery   of Federal   programs   in ways that may
  not always   be as readily quantifiable°        We suggest    that the
  legislation   focus on improving     the reporting    process   from
  the standpoint    of the IG's involvement      with agency    managers
  in furthering   the aims of the Department.

  To further    enhance   reporting    requirements,   we suggest   that
  the term "audit resolution"        be defined    in a manner  that is
  consistent    with the widely-accepted       and understood
  definition    contained   in OMB Circular     A-50o   New definitions
  contained    in So 908 cloud the issue by creating         a dual
  meaning   within   the Federal    sector for the term°

  Another   concern   relates to the point at which the six-month
  audit determination      period   begins°     We suggest   the
  elimination    of the dual standard       applied   to audits performed
  by Federal    auditors    (six months   after issuance)     as opposed
  to audits performed      by non-Federal      auditors   (six months
  after   receipt by the executive       agency).

  Finally,    in light of the emphasis      placed by Congress     and the
  IG community    on preventing     frauds waste and abuse and
  improving    the efficiency    and effectiveness     of future program
  operations,    we suggest   that the reporting      requirements    be
  expanded   to include    the monetary    value of recommended
  savings   and management    efficiencies_     as well as savings     and
  efficiencies    achieved   through   managements'    commitments   to
  take action on auditors'       recommendations°

  O _histleblo_e_     Protection     Act   of 1987

  We support    the changes   proposed    in the Whistleblower
  Protection    Act, which will enhance      the Office   of Special
  Council's    (OSC) independence    and increase    their authority            to
  protect   whistleblowerso     The Act will provide      additional
._protection    for whistleblowers     through  individual    right of
  action to file suit after the OSC fails to act within             an
  180-day   period°

  O _ede_al    Financial   _anagement      Refo_R    Act   of   1987

 The OIG strongly   endorses        the overall      concept   of this bill,
 which will provide    strong       centralized      financial   systems




                                   -70-
management   and establish   a Chief Financial    Officer  (CFO) for
the entire Government,     as well as a CFO in each agency.       As
a suggestion,   the legislation    should include   a requirement
for annuale   audited  financial   statements  for each agency and
the United States Government      as a whole°


                       P_ODUC_XVX_Y     I_PROV_

Conversion    and improvement     of the OA Information        System --
Assignment    Tracking   and Reporting     System    (ATARS) -- from
USDA to OIG's computer       will enable OA managers        to use
on-line   computer   systems    to manage audit projects;        to
provide   information    reflecting    project    status resources
required   and used to date; and, most importantly,             to project
costs.    These capabilities      are especially      critical   in
monitoring    CPA firms under contract°

The creation    of administrative    support  facilities  on the          OIG
computer   will allow for more effective      and efficient
management    of training,   premium  pay resources   and forms
preparation°


                             ADP   INITXATXVES

Computer    specialists    within    the Division     of Information
Resources    designed,    developed     and implemented      a computer
security    system°    This OIG software        package    consists   of an
user environment      control    program    that incorporates       a number
of desirable     security    features    not included      in the
vendor-supplied      software    for our minicomputers°         It has been
offered   to other installations         through    a newsletter
distributed     to Federal    users of Data General         computer
equipment°      Enough interest      was generated      that in July the
offer was repeated       in Database     MonthlM,    a national     magazine
aimed at Data General       computer     users.     Since July, we have
responded    to about eighty      requests    for the package
worldwide,    including    requests     from parliaments       in Australia,
Canada   and New Zealand°


                          PERSONNEL    ACTIVITIES

Training   matrices   have been developed      for all OIG
occupational    series and for management       development
initiatives.     This information     is now available     in our
automated   Training   Information    System,   which aids managers
in planning    and documenting    training    sessions°




                                -71-
During the reporting       periods   the OIG continued     to present
its two-hour     ethics and integrity      training   course to
supervisors     and managers    throughout    the Department°      This
course   constitutes     a required    part of the Department"s       core
training   program    for supervisors°       It focuses   on everyday
questions    and problems     of ethics and integrity       in the
workplace    including    such issues as conflicts      of interest;
acceptance    of gifts or gratuities;        outside  employment;
improper   use of government       resources   or facilities;     and
reporting    wastes   fraud and abuse°




The OIG has had a long-teEm        concern   about the high-costs
inefficiency     and potential    fraud present     in government
benefit   programs°     One method    to address    some of these
concerns   and problems     is to use some of the more recent
technological     innovations   employed    by private    industry°
Plastic   cards containing     a compute[    chip (so-called      _smart
cards w) and cards with magnetic        stripes   are two such
methodologies     that may be applied      to many Federal     benefit
programs°     This technology     would enable    services   to be
delivered   more quicklys     administrative     costs and the error
rate to be reduceds      and vulnerability      to fraud and abuse to
be minimized°

Mindful   of the potential    efficiencies    and savings   realizeds
we held a meeting     for PCIE and OMBs in which many OIGs
participated    as well as the Deputy Director       of OMBs where
the technology     and its application    to several   government
activities   and programs    were discussed°     As a result of this
meetings   the IG produced    and narrated    a 30-minute   video tape
addressing   plastic   card electronic    approaches   to both state
and Federal    government  programs°     We will continue    to pursue
the dissemination     and adoption   of this technology     to foster
economy   and efficiency   within government     issuance   and
delivery   systems°




                               -72-
                          C0_LAX_           BANDLXNG       ACTXVXTI_S


The Office of Inspector       General   is the focal point for
receiving   and tracking     reports of alleged      fraud, gross waste
or abuse in the Department        of Lab.r.    During    this reporting
period,   the OIG received      978 complaints    nationwide   from the
general   public,   departmental    employees,    the Congress   and
other agencies°      These complaints     were made directly      to the
OIG National    Office,   OIG Regional    Offices    and the OIG
Complaint   Analysis    Office°    Following   is a breakdown    of the
various   sources   of complaints     we received:

      TOTAL   ALLEGATIONS           REPORTED:                                           978

                              ALLEGATIONS            BY   SOURCE:

      Walk - In                                                                         2
      DOL/IG   Hotline   Phone                                                          94
      Telephone    calls                                                                14
      Letters   from Congressmen                                                        i0
      Letters   from individuals    or
         Organizations                                                                  24
      Letters   from non-DOL   agencies                                                 557
      Letters   DOL agencies                                                            113

      Incident    Reports  from DOL                 agencies                            102
      Reported    by agent/auditor                                                      49
      Referrals    from GAO                                                             13

The    next   graph       depicts     the     disposition           of   the   complaints:
                      l


                               COMPLAINTHAND_NGACTIVITIES




                              roe.M_STm,
                                     mON/_UJorr



                                      A
         I_    TO PROGRAM _      4.1XWPi_



                                NO_         A011_


                                978 COMPLAINTS REPORTED M_TION_tlDE




                                            -73-
                          _NEY   (_TED TO TB_
                         D_PART_IT    OF LABOR


In accordance     with a request   in the Senate Committee        on
Appropriations'      report on the Supplemental      Appropriation     and
Rescission    Bill of 1980, the chart on the following          page
shows unaudited      estimates provided   by departmental      agencies
on the amounts     of money owed, overdue,      and written    off as
uncollectible     during the current    6-month    reporting   period°




Footnotes:

i/   Includes    amounts  identified  as contingent    receivables
     that are    subject  to an appeals  process   that can
     eliminate    or reduce the amounts   identified°

2/   Any amount more than      30 days overdue is delinquent°
     Includes  items under     appeal and not in collection   mode°

31   Includes   write-offs   of uncollectible     receivables   and
     adjustments    of contingent    receivables   as a result of the
     appeals   process   and reclassification     of disallowed   costs
     based on documentation      submitted   after audit resolution°

4/   Approximately    70 percent    of   the   total is currently   under
     appeal to an    Administrative      Law   Judge°




                                  -75-
_c::_m                       +130187     g1_0187    I_1   9130187      2_1   91_0187     31   9130187       __1


_aployr_m_     S__

Federal Employees'
Compensation Act
- beneficiary/provider
  overpayments               $ 15o944   $ 230887          $    80700           -$6+083        $     7°708

Black Lung Program
- responsible mine
  operator reimburse-
  ment_ beneficiary/
  provider overpay-
  ments                        180917    1830851              13+800           -12.404            1630549




- disallowed costs+
  outstanding  cash
  balances_ grantee
  overpayments                 27°600    335°245              25.000           -80.000         256.974




- mine    operator              90890      90173               70100            -3.000              10723

Pension   Benef i_
Gumz_nt_ Corporation
- plan assets subject
  6o transfer_ employer
  liability; accrued
  premium income              297°807     320841               2°500                     0                  0

                                9+300     20o1500              4°020               -72              6o638

_LS                               500         150                I00              -120                      0



 _o_i                        $3790958   $6050647          $61o220            -$101o679        $436°592




See previous    page   for footnotes.




                                          -76-
APPENDXX




-77-
                                   SELgCTED         STA_X STXCS
                  April       1,    1987 to         Septembe_   30_              1987


Audit   Activities

   --    Reports   issued on DOL activities                              .........                    120
   --    Audit exceptions      ............                                              $147o0  million
   --    Reports   issued for other Federal                             agencies                o o    19
   --    Dollars   resolved   ............                                               $13813 million
                 Allowed    .............                                                $ 40°3 million
                 Disallowed      ...........                                             $ 98°0 million


Fraud   and   Integrity       Activities

   --    Allegations    reported        .............                                                       978
   --    Cases opened      ..................                                                               633
   --    Cases closed      .................
                                o                                                                           599
   --    Cases referred     for prosecution       .........                                                 614
   --    Individuals    or entities     indicted     ........                                               582
   --    Successful   criminal    prosecutions       ........                                               427
   --    Referrals   for administrative       action      ......                                             85
   --    Administrative     Actions     .............                                                        35
   --    Fines, penalties,      restitutions
                  and settlements       ...........                                              $2,355,059
   --    Recoveries     .................                                                        $1,955,686
   --    Cost efficiencies         .............                                                 $3_216g000


Labor   Racketeering      Investigation                 Actiwities

   --    Cases opened     ....................                                                          17
   --    Cases closed               ................                                                    27
   --    Individuals   infii&ed ° ................                                                      87
   -"    Individuals   convicted       ..........                                                  . • 61
   --    Fines     . . ................                                                      [$" •305,825
   --    Forfeitures      o    •    •   •   o   •   •   o   o   o   •    o   o   o   o   o   •$ 5 283 362
                                                                                                   ,    ,


   --    Restitutions     ................                                                    $   864,615




                                        -79-
                    _U_           OF AUDIT     ACTIVITY  OF DOL PROGRAMS
                          April    i, I%87     to September  300 i%87


                                                                                 _aount
                                          _L               _un_     of        Recommended
Agency               Reports        Grant/Contract         Ouestioned              for
                     Xssued         Amo_.    Audited          Costs           Disallo_nce


OSEC                         i                   7,838                    0           2,103

VETS                         5            2,618,340                  501                     0

ETA                         79       6,006,932,633          92,798,103          53,997,560

ESA                          3                         0                  0                  0

MSHA                         4          10,891,477               22,867               6 _925

OASAM                       14               215 _581                     0                  0

OIG                          3                         0                 0                   0

OSHA                         7            4 F627,554             14,692                      0

BLS                          3                         0                 0                   0

MULTI                        1         107 _850 _074             77 g450                     0

Other    Agencies           19         222,398,558               15,294                      0


  TOTALS                   139      $6,355,542,055         $92,928,907         $54,006,588




                                        -80-
           SUMMARY OF AUDIT   ACTIVITY  OF       ETA PROGRAMS
              April 1_ 1987   to September        30v 1987


                                                                  _ount
                                              _ount    o_       R_cO_Q_
Program    Reports   Grant/Contract          Questioned             for
           X|oued    Amount Audited            Costs            Disallo_nce


ADMIN            2     $                0   $               0   $                0

UIS            12     3,586,723,069             9,341,886           53,211,583

SESA             8      745,748,413             1,094,834                        0

JTPA           16       620,851,582               510,6 87             161,663

CETA           12     1,031,032,048          79,932,750                624,314

OSPPD            i                      0                   0                    0

DINAP           6                       0                   0                    0

DOWP             9         17,841,782             193,308                        0

DSFP           11           4,735,739             424,739                        0

OJC             1                       0                   0                    0

CT/EUW          1                       0       1,299,899                        0


  TOTALS       79    $6,006,932,633         $92,798,103          $53,997,560




                            -81-
       SU_%RY   OF AUDitS  PERFOR_D      U_DgR THg SINGLE AUDIT       ACT
                  April i o 1987 to     September 30o 1987


                                                                  Amount
                                                _ount    of     Recommended
Agency          Reports   Grant/Contract       Questioned           for
                Xssued    Amount  Audited        Costs          Disallowance


ETA                 25      $569,648,6113      $1,737,241            $161,663

MSHA                 i         90912 _992                   0                   0

OSHA                 1         2,407 ,235          14,6 92                      0

OT AGY              i0       217,306,17"7         $15,294                       0


 TOTALS             37      $799,275,017       $i,767,227            $161,663




                                 -82-
-83-
         m




_o   \       _=
                                           SL_dM_R_OF b_IDITRE3(IHIXC_
                                                                     AL'IXVITY
                                           APRIL Io 1987_3 SSPI_PB_R30. 1987

                 APRIL 1. 1987         _                               RES(LVI_)                _:FI"I_',BI_,
                                                                                                        30. 1987
S_m_M        _        tn_Rm3(lwm (_)                                   (D_:r_=_.s)              BAtA'X_
                                                                                                     b'_RES35V'ED
                         IX]LI2%RS REPORTS     IXX/ARS       REPORTS   _           DISAILGa_    REKXqI_      DCLIARS

                 0               0    1           2o1(]8       0              0           0       1            2,103

VEPS             0               0    5            501         4              0           0       1              501

ETD_
 AIMIN         0              0       2                 0      2            0              0      0                 0
               1              0       0                 0      1            0              0      0                 0
UIS           18     110o779o799     12      62°553°469       18    34°592°878     76o186o921    12        62.553,469
              II      15p930=652      8       1o094,834       II     4°608,372     11o469,529     8         1.094,834
J'IPA          5       3°326°307     16         672,350        9        46°989      3o279o318    12           672,350
              14       7o293°923     12      80°557,064       22       642,692      6,067,438     4        81,140,857
OSPPD          2         586o561      1                 0      2        34°347        477,201     1            75°013
DINAP          1              0       6                 0      7            0              0      0                 0
IKIqP          1              0       9          193o308       6            0              0      4           193o308
               4           9p996     11         424°739       13            0          16o078     2           418o657
 CJC           2         788,868      1                 0      3       391o435        397°433     0                 0
 CT/_/         0              0       1       1.299,899        0            0              0      1         1o299o899

ESA              1               0    3               0        3              0           0       i                0

OU,B/P,
      mA         1               0    0               0        1              0           0       0                0

                 3               0    4          29°792        6              0           0       1           29,792

OASAM            3    12DB81o213     14               0       14              0       67°578      3        12,813o635

_ICIRIIR         0               0    0               0        0              0           0       0                0

010              0               0    3               0        3              0           0       0                0

O_{A             3        6°789       7          14,692        9           3,608       3,181      1            14o692

w.S              0               0    3               0        2              0           0       1                0

IV_LTI           0               0    I          77,450        0              0           0       1            77,450

O'/}{ER
     _Y          2       69,700      19          15o294       13              0       69,700      8            15,294

_EAL          72 $151o693,808        139 $146°935o495         149   $40,315,321 $98,034,377       62      $160,401°854




=: re&,ulat=¢"y
              req'._ts).
      _          occurswhen the prograna_ency_     the audit org_-tlzatlcm
                                                                         agree on actionto be t_um _ reported
fi_      and _ecumm_ations. _,       thistable does_ot includeactivit7m_u_nt       to the finaldeteminationsuch
as the appealspx'_:_s0 the results (_ the program _      debt collect_ efforts,or rt_isi_ of prior deteumminatic_s
_?air.b
      =my _It    in the red_ctionof Uhe amount_orted as di_o_ed costs.
            bet_en tim _          balm_oesin this_._eduleand the _       balm_ce_in the _.__dule_of the previous
_m_1       _      resultfrom adj_ts      requLted_       the re_o_    _od_
       _           includes_additionalclaim ammmts" of $122o249,i.e.,the _motmtwhich a grsntofficerhas
disall_d in additionto th_ _           findi_ mount.




                                                      -85-
                          STATUS OF AUDIT RESOLUTION ACTIONS
                          OI_ AUDITS UNRESOLVED OVER 6 NONTHS



                    APRIL Io 1987                RESOLVED                  SEPTEMBER 30° 1987
AGENCY            BALANCE _SOL_FED              (DECREASES)                BALANCE U_SOLVED
PROGRAM           REPORTS    DOLLARS        REPORTS    DOLLARS   I/        REPORTS  I_LLARS 2/



OSEC                 0                  0        0                   0        0                 0

VETS                 0                  0        0               0            0                 0

ETA:
  ADMIN              0                  0        0                0           0              0
  OFCMS              1                  0        1                0           0              0
  UIS               18    110o779o799           17     110o779o799            1              0
  SESA              II     15o950o652           II      15o950o652            0              0
  JTPA               5      3°326°307            5       3°326°307            0              0
  CETA              14      7°293°923           13       6o710o130            1       583°793
  OSPPD              2        586o561            1         511o548            1        75o013
  DINAP              1                0          1                0           0              0
  DOWP               1                0          1                0           0              0
     DSFP            4          9°996            4           9_996            0             0
     OJC             2        788o868            2         788o868            0             0
     CT/EUW          0               0           0                0           0             0

ESA                  I                  0        i                   0 .      0             0

OLMS/PWBA            1                  0        1                   0        0             0

MSHA                 3                  0        3                   0        0             0

OASAM                3     12o881o213            2          67°578            I    12o813o635

SOLICITOR            0                  0        0                   0        0             0

OIG                  0                  0        0                   0        0             0

OSHA                 3           6°789          3            6°789            0             0

BLS                  0                  0        0                   0        0             0

OTHER AGY            2         69° 700           2          69° 700           0             0



TOTAL               72   $1510693o808           68,   $1380221o367            4   $13o472_441



I/     Reflects resolution activity for assignments which had been unresolved at
       the beginning of the period°
2/     Includes only those assignments whose unresolved status is over 6 months°


                                         -86-
                                                        I    II
                                                        I    II
                        cq c_ u'_                  0    J,-_II
           I:I          o-,_ c_                         I"_ II
           0            r--0 _0                         I--'I"
                                                             II
           ._I           _ - *'                         i '_II
           _a           cq u-_eq                        lo4 II
           I_           oo r_ ,-_                       Jr-- II
       .!_ _1           u-_   co                        I"-1 II
        _ U                                             I ,_11

       r_ I_                       _                        II
                                                            II
                                                        I   II
            U
       0

       0 1_             c'_ u,-_,-I                m    I c_ II
       I_I                      _                       I_ II
                                                        I    II



                                   o
                                   r,D



                                    Z

OO          ®                                      0

           ,1=t                     Z      oo


_O         _            OO                  O
_Ita       _                  ¢._          .-4


                        H_                 ,-4     Z




_                       0           0      _       _4




_:_        ,._    _      I    I        I   ,!=I    I

             :S    _    ooo                 _      o
        4.1 _I    .4     I I I             _        I
       .-4         _a   r-.,-_u_           r_      c_
       •_         .H    _oo_0                      o
        m         ,-1   o_o                 _)
            4=I          I I I              _I     I

            0     0     CO0000             _       _0
            I_           I I I                      I

                   0    ooo                0       o
                  .N                       .,4


           cO     _                        ,-4
                  .4          c_           0

            0     _o    E_c_                _      ca

                  l_    000




                                            -87-
                                        FINAL AUDIT    REPORTS  ISSUED
                                          01-APR-87    TO 30-SEP-87



                                              DATE SENT
       AUDIT                                  TO PROGRAM
REPORT    NUMBER   AGENCY       PROGRAM        AGENCY        NAME    OF AUDIT/AUDITEE



02-87-033-03-315    ETA           UIS          26-JUN-87     STATE     OF NEW     YORK
02-87-079-03-315    ETA           UIS          19-MAY-87     STATE     OF NEW     HAMPSHIRE


02-87-052-03-325    ETA           SESA         17-JUN-87     CONNECTICUT   DEPT OF LABOR
02-87-089-03-325    ETA           SESA         08-JUL-87     RHODE  ISLAND/PROVIDENCE    PLANTATIONS
02-87-124-03-325    ETA           SESA         24-AUG-87     VERMONT     DEPT     OF EMP    & TRNG


02-87-078-03-340    ETA           JTPA         08-JUL-87     HARTFORD°      CITY    OF


02-82-009-03-345    ETA           CETA         12-MAY-87     LOWELL   CONSORTIUM
02-84-136-03-345    ETA           CETA         30-SEP-87     COMMONWEALTH      OF PUERTO           RICO
02-85-022-03-345    ETA           CETA         06-MAY-87     MUNICIPALITY      OF BAYAMON
02-86-034-03-345    ETA           CETA         16-JUL-87     BROOME   COUNTY
02-87-003-03-345    ETA           CETA         26-JUN-87     SUFFOLK    COUNTY
02-87-011-03-345    ETA           CETA         16-JUL-87     CUMBERLAND     COUNTY
02-87-020-03-345    ETA           CETA         16-JUL-87     MIDDLESEX     COUNTY
02-87-026-03-345    ETA           CETA         26-JUN-87     BUFFALO°    CITY OF

02-87-081-03-365    ETA           DSFP         06-JUL-87     CENTRAL     VERMONT


02-87-080-03-370    ETA           OJC          10-AUG-87     TRAINING     AND     DEVELOPMENT         CORP


02-85-074-04-431    ESA           FECA         31-AUG-87     FECA    TIMELINESS


02-87-050-04-432    ESA           DLSHWC       17-APR-87     LONGSHORE     HARBOR        WORKERS


02-86-028-10-105    OSHA          EN/PRG       II-SEP-87     OSHA    ENFORCEMENT         ACTIVITIES


02-85-042-11-001    BLS           ADMIN        16-JUL-87     ASSET     MANAGEMENT-BLS


02-87-055-98-599    OT    AGY     OT    AGY    16-APR-87     WATERBURY      CTo    CITY    OF


03-85-040-03-001    ETA           ADMIN        02-JUL-87     ETA/CARE     GENL     RISK    ANALYSIS


03-87-003-03-325    ETA           SESA         04-MAY-87     VIRGINIA     EMP     COMM
03-87-024-03-325    ETA           SESA         07-AUG-87     VIRGINIA     EMP     COMM


03-87-023-03-340    ETA           JTPA         II-AUG-87     MARYLAND
03-87-026-03-340    ETA           JTPA         08-SEP-87     DELAWARE




                                                -88-
                                         FINAL    AUDIT   REPORTS     ISSUED
                                           01-APR-87      TO   30-SEP-87



                                                 DATE SENT
         AUDIT                                   TO PROGRAM
REPORT     NUMBER   AGENCY       PROGRAM         AGENCY          NAME      OF    AUDIT/AUDITEE



03-87-016-06-601     MSHA          GRTEES        04-MAY-87       VA    DEPT      OF   MINES°     MINERALS      & ENERGY

03-87-002-06-610     MSHA          CMSH           23-SEP-87      W    VA   DIV    OF VOC       REHAB


03-87-025-10-101     OSHA          OSHAG          10-SEP-87      VA    DEPT      OF LABOR       AND     INDUSTRY


03-87-014-98-599     OT AGY        OT    AGY     06-JUL-87       BUCKS      COUNTY°       PA
03-87-018-98-599     OT    AGY     OT    AGY     08-MAY-87       ALLEGHENY    COUNTY°    PA
03-87-019-98-599     OT    AGY     OT    AGY     14-MAY-87       PRINCE   GEORGE'S    COUNTY°              MARYLAND
03-87-021-98-599     OT    AGY     OT    AGY     06-JUL-87       RICHMOND°    VAo CITY OF
03-87-027-98-599     OT    AGY     OT    AGY     23-SEP-87       BALTIMORE°    CITY OF


04-84-090-03-315     ETA           UIS           21-SEP-87       FEDERAL         SHARE/UIo       SUMMARY   REPORT
04-85-072-03-315     ETA           UIS           30-SEP-87       FEDERAL         SHARE/UIo       NEW YORK
04-85-077-03-315     ETA           UIS           30-SEP-87       FEDERAL         SHARE/UIo       MICHIGAN
04-85-079-03-315     ETA           UIS           30-SEP-87       FEDERAL         SHARE/UIo       INDIANA
04-85-094-03-315     ETA           UIS           30-SEP-87       FEDERAL         SHARE/UI°       WASHINGTON
04-85-118-03-315     ETA           UIS           27-APR-87       FEDERAL         SHARE/UIo       WEST VIRGINIA
04-86-033-03-315     ETA           UIS           30-SEP-87       FEDERAL         SHARE/UIo       NEW JERSEY
04-86-035-03-315     ETA           UIS           30-SEP-87       FEDERAL         SHARE/UIo       MASSACHUSETTS

04-87-059-03-340     ETA           JTPA          21-MAY-87       N. Co DEPT OF HUMAN     RESOURCES
04-87-068-03-340     ETA           JTPA          17-JUN-87       KY CABINET    FOR HUMAN    RESOURCES
04-87-070-03-340     ETA           JTPA          25-JUN-87       COMMONWEALTH     OF KENTUCKY
04-87-076-03-340     ETA           JTPA          14-JUL-87       COMMONWEALTH     OF KENTUCKY
04-87-091-03-340     ETA           JTPA          21-SEP-87       GEORGIA   DOL


04-87-064-07-001     OASAM         ADMIN         15-JUL-87       OASAM      IMPREST       FUND


04-87-036-98-599    OT     AGY     OT    AGY     18-MAY-87       LOUISVILLE°     KYo CITY OF
04-87-046-98-599    OT     AGY     OT    AGY     28-APR-87       SARASOTA    COUNTY°    FLORIDA
04-87-053-98-599    OT     AGY     OT    AGY     28-MAY-87       CUMBERLAND     COUNTY°    NORTH            CAROLINA
04-87-055-98-599    OT     AGY     OT    AGY     19-MAY-87       OCONEE   AREA PLANNING       AND           DEV COMM
04-87-058-98-599    OT     AGY     OT    AGY     22-MAY-87       ORANGE  COUNTY°   FLORIDA
04-87-060-98-599    OT     AGY     OT    AGY     01-JUN-87       NoE. FLORIDA    RGNL PLANNING                 COUNCIL
04-87-079-98-599    OT     AGY     OT    AGY     17-JUL-87       ALABAMA  DEPT           OF ECON COMM         AFFAIRS
04-87-097-98-599    OT     AGY     OT    AGY     30-SEP-87       RURAL ALABAMA            DEV CORP


05-87-041-03-315    ETA           UIS            15-SEP-87       NEBRASKA         DEPT   OF     LABOR




                                                  -89-
                                 FINAL AUDIT REPORTS ISSUED
                                   01-APR-87 TO 30-SEP-87



                                        DATE SENT
      AUDIT                             TO PRCGRAM
REPORT NUMBER      AGENCY    PROGRAM     AGENCX      NAME    OF AUDIT/AUDITEE



05-87-015-03-340    ETA        JTPA      28-JUL-87   OGLALA SIOUX TRIBE
05-87-026-03-340    ETA        JTPA      27-MAY-87   MINNESOTA MIGRANT COUNCIL.         INC
05-87-030-03-340    ETA        JTPA      19-JUN-87   MENOMINEE INDIAN TRIBE/WI
05-87-031-03-340    ETA        JTPA      21-JUL-87   ONEIDA INDIAN TRIBE/WI
05-87-034-03-340    ETA        JTPA      27-JUL-87   RURAL MISSOURI, INC

05-86-084-03-345    ETA        CETA      08-JUL-87   ST CLAIR COUNTY      CETA
05-87-035-03-345    ETA        CETA      25-JUN-87   COLUMBUS, OHIO,      CITY OF
05-87-038-03-345    ETA        CETA      21-JUL-87   MAHONING COUNTY      EMP AND TRNG

05-87-017-03-350    ETA        OSPPD     12-JUN-87   NEBRASKA    DEPT OF AGING

05-87-032-03-360    ETA        DOWP      21-JUL-87   NEBRASKA DEPT OF ADMIN SERVICES
05-87-033-03-360    ETA        DOWP      21-JUL-87   CHICAGO, IL, CITY OF
05-87-036-03-360    ETA        DOWP      21-JUL-87   MISSOURI DIVISION OF AGING
05-87-037-03-360    ETA        DOWP      15-SEP-87   CASS COUNTY, INDIANA

05-87-019-03-365    ETA        DSFP      15-SEP-87   UNITED    MIGRANT   OPPORTUNITY    SVCS

05-87-020-03-391    ETA        CT/EUW    15-SEP-87   OHIO BUREAU    OF EMP SVCS

05-87-006-07-001    OASAM      ADMIN     23-SEP-87   OASAM    PROCUREMENT/CARE

05-86-025-07-742    OASAM      OCD       29-_Y-87    SER-DALLAS INDIRECT COSTS
05-86-069-07-742    OASAM      OCD       25-SEP-87   LEO A. DALY & CO INDIRECT         COSTS

05-87-010-10-001    OSHA       ADMIN     20-_JL-87   OSHA/CARE    PROGRAM   MGMT   SYSTEMS

05-86-091-10-001    OSHA       OSHAG     26-MAY-87   IOWA BUREAU    OF LABOR

05-87-040-50-551    MULTI      MULTI     15-SEP-87   MINNESOTA

05-87-029-98-599    OT AGY     OT AGY    27-_JL-87   IOWA GOVERNOR'S      OFFICE

06-87-516-02-001    VETS       ADMIN     29-JUN-87   ARKANSAS    EMP SEC DIVISION

06-87-504-03-325    ETA        SESA      29-JUN-87   ARKANSAS    EMP SEC DIVISION

06-87-514-03-340    ETA        JTPA      29-JUN-87   ARKANSAS EMP SEC DIVISION
06-87-555-03-340    ETA        JTPA      25-AUG-87   DALLAS INTER-TRIBAL CENTER




                                          -90-
                                     FINAL AUDIT   REPORTS ISSUED
                                       01-APR-87   TO 30-SEP-87



                                         DATE SENT
      AUDIT                              TO PROGRAM
REPORT NUMBER      AGENCY    PROGRAM      AGENCY        NAME OF AUDIT/AUDITEE



06-87-539-03-360    ETA        DOWP       24-JUN-87     ARKANSAS    OFFICE    ON AGING

06-87-540-06-601    MSHA       GRTEES     29-JUN-87     NEW MEXICO       ENERGY   & MINERALS   DEPT

06-87-511-10-101    OSHA       OSHAG      08-APR-87     TEXAS    DEPARTMENT OF HEALTH
06-87-535-10-101    OSHA       OSHAG      25-JUN-87     NORTH    DAKOTA HEALTH DEPT

06-87-515-11-111    BLS        BLSG       29-JUN-87     ARKANSAS    EMP SEC DIVISION

06-87-542-98-599    OT AGY     OT AGY     18-SEP-87     NEW MEXICO       GOVERNOR'S   OFFICE
06-87-543-98-599    OT AGY     OT AGY     10-SEP-87     NEW MEXICO       GOVERNOR'S   OFFICE

09-87-533-02-001    VETS       ADMIN      08-JUN-87     TULARE    COUNTY,    CA

09-87-547-03-315    ETA        UIS        12-AUG-87     ALASKA    DOL UI COMP FUND

09-87-535-03-325    ETA        SESA       II-JUN-87     OREGON
09-87-546-03-325    ETA        SESA       07-AUG-87     ARIZONA    DEPT OF ECONOMIC      SEC

09-87-527-03-340    ETA        JTPA       14-MAY-87     NEVADA    JTPA

09-87-541-03-345    ETA        CETA       07-JUL-87     MID-WILLAMETTE       JOB COUNCIL

09-87-531-03-355    ETA        DINAP      26-MAY-87     SEATTLE INDIAN CENTER
09-87-532-03-355    ETA        DINAP      08-JUN-87     UNITED INDIAN NATIONS INC CNSRT
09-87-539-03-355    ETA        DINAP      02-JUL-87     NO CA INDIAN DEVELOPMENT COUNCIL
09-87-540-03-355    ETA        DINAP      08-JUL-87     NATIVE AMERICANS FOR COMM ACTION
09-87-542-03-355    ETA        DINAP      09-JUL-87     ORANGE COUNTY INDIAN CENTER
09-87-544-03-355    ETA °      DINAP      14-JUL-87     THE FORGOTTEN AMERICAN, INC

09-87-518-03-360    ETA        DOWP       13-MAY-87     HAWAII COUNTY
09-87-528-03-360    ETA        DOWP       18-MAY-87     GOVERNMENT OF GUAM

09-87-523-03-365    ETA        DSFP       09-APR-87     PROTEUS EMPLOYMENT OPPORTUNITIES
09-87-524-03-365    ETA        DSFP       26-JUN-87     NEW ENGLAND FARM WORKERS COUNCIL
09-87-525-03-365    ETA        DSFP       21-APR-87     ORO DEVELOPMENT  CORPORATION
09-87-526-03-365    ETA        DSFP       08-MAY-87     RURAL OPPORTUNITIES  INC
09-87-529-03-365    ETA        DSFP       20-MAY-87     NEBRASKA ASSN FAR_MWORKERS
09-87-530-03-365    ETA        DSFP       20-MAY-87     IDAHO MIGRANT FARMWORKERS    INC
09-87-534-03-365    ETA        DSFP       07-JUL-87     CA HUMAN DEVELOPMENT   CORP




                                           -91-
                                         FINAL    AUDIT    REPORTS       ISSUED
                                           01-APR-87       TO   30-SEP-87



                                                 DATE SENT
         AUDIT                                   TO PRC_RAM
REPORT     NUMBER   AGENCY       PROGRAM          AGENCY           NAME     OF AUDIT/AUDITEE



09-87-537-03-365     ETA           DSFP           02-JUL-87        SELF-HELP        ENTERPRISES
09-87-545-03-365     ETA           DSFP           16-JUL-87        RURAL     COMMUNITY           ASSISTANCE        CORP


09-87-002-07-001     OASAM         ADMIN          30-SEP-87        OASAM/CARE


09-87-536-98-599     OT    AGY     OT    AGY      26-JUN-87        ANAHEIM,        CITY     OF

11-86-065-01-080     OSEC          PCEH           28-JUL-87        PRES     COUNCIL-EMP           HANDICAPPED


11-85-206-02-001     VETS          ADMIN          15-APR-87        FLORIDA  VETS PROGRAM
11-87-042-02-001     VETS          ADMIN          08-SEP-87        JTPA TITLE   IV-C GRANT                ADMIN
11-87-044-02-001     VETS          ADMIN          31-JUL-87        DVOP PROGRAM   GUIDE


11-87-038-03-360     ETA           DOWP           14-JUL-87        NATL     CAUCUS/CENTER              ON BLACK     AGED
11-87-039-03-360     ETA           DOWP           27-MAY-87        GREEN     THUMB,       INC

11-86-027-06-001     MSHA          ADMIN          01-MAY-87        MSHA's     IRM     CAN    BE    IMPROVED


11-87-029-07-720     OASAM         DIT            29-APR-87        COMPUTER        SYSTEMS        INTEGRITY


11-86-046-07-741     OASAM         OP             01-APR-87        ACME REPORTING
11-86-064-07-741     OASAM         OP             21-SEP-87        ADP COMMERCIAL            SERVICES
11-87-035-07-741     OASAM         OP             24-APR-87        TRITON  CORP
11-87-036-07-741     OASAM         OP             16-APR-87        AUTOMATED    SCIENCES               GROUP°     INC
11-87-048-07-741     OASAM         OP             22-JUL-87        DYNAMIC   CORPORATION
11-87-050-07-741     OASAM         OP             16-JUL-87        TS    INFOSYSTEMSo            INC

11-87-032-11-001     BLS           ADMIN          29-SEP-87        SYSTEMS        MONITORING


12-87-009-03-001     ETA           ADMIN          12-AUG-87        FINANCIAL        STATEMENTS           COMPILATION


12-87-018-04-001     ESA           ADMIN          II-SEP-87        FINANCIAL        STATEMENTS           COMPILATION


12-87-017-07-001     OASAM         ADMIN          22-SEP-87        DOL     CONSOLIDATED           FIN    STMTS
12-87-021-07-001     OASAM         ADMIN          30-SEP-87        DOL     CONSOLIDATED           FIN    STMTS     COMP


12-86-018-09-001     OIG           ADMIN          24-APR-87        OIG/CARE        FIN REVIEW   GRA
12-86-019-09-001     OIG           ADMIN          24-APR-87        OIG FIN        REV/FIN  RPTG
12-87-013-09-001     OIG           ADMIN          08-JUN-87        OIG FIN        STMT COMP




                                                    -92-
                                 FINAL AUDIT     REPORTS ISSUED
                                   01-APR-87     TO 30-SEP-87



                                        DATE SENT
      AUDIT                             TO PROGRAM
REPORT NUMBER      AGENCY    PROGRAM     AGENCY       NAME   OF AUDIT/AUDITEE



12.87-001-10-001    OSHA       ADMIN     02-JUL-87    OSHA FIN STMT COMP

15-87-002-98-599    OT AGY     OT AGY    17-APR-87    DOL DAY CARE CENTER




                                          -93-
                     ABBREVIATIONS    USED   IN THIS   REP_R_


The     Regions   are:
      02     New York
      03     Philadelphia
      04     Atlanta
      05     Chicago
      06     Dallas
      09     San Francisco
      ii     Washington
      12     Financial   Management   Audit    Division
      15    Division    of Administration,      Benefits    and
             Regulatory   Compliance
      16    Division    of Advanced   Audit    Techniques

The    Agencies      are:
      BLS         Bureau of Labor Statistics
      ESA         Employment    Standards  Administration
      ETA         Employment    and Training   Administration
      MSHA        Mine Safety and Health Administration
      OASAM       Office of the Assistant      Secretary    for
                  Administration     and Management
      OIG         Office   of Inspector   General
      OLMS        Office   of Labor-Management     Standards
      OSEC        Office   of the Secretary
      OSHA        Occupational    Safety and Health Administration
      PWBA        Pension   and Welfare   Benefits   Administration
      SOL         Office of the Solicitor
      VETS        Veterans   Employment   and Training    Service

      GAO         General   Accounting   Office
      IRS         Internal   Revenue   Service
      OMB         Office   of Management    and Budget
      OPM         Office   of Personnel   Management

The     types   of programs    audited   are:
      ADMIN      Agency   administration
      ADP        Automatic    Data Processing
      BL         Black Lung
      BLSG       Bureau of Labor Statistics        Grantees
      CCCA       Comprehensive     Crime Control    Act
      CETA       Comprehensive     Employment   and Training     Act
      CMSH       Coal Mine Safety and Health
      COMP       Comptroller
      CT/EUW     Multiprogram     audits of CETA, SESA, UIS and WIN
      DCMWC      Division   of Coal Mine Workers'       Compensation
      DFEC       Division   of Federal    Employees'    Compensation
      DINAP      Division   of Indian and Native       American   Programs




                                  -94-
DIRM     Directorate     of Information      Resources     Management
DIT      Directorate     for Information       Technology
DLSHWC   Division    of Longshore      and Harbor Workers °
         Compensation
DMPS     Directorate     of Management      Policy and Systems
DOL      Department     of Labor
DPGM     Directorate     of Procurement      and Grant Management
DPM      Directorate     of Personnel      Management
DSFP     Division    of Seasonal     Farmworker     Programs
DOWP     Division    of Older Worker       Programs
DVOP     Disabled   Veterans     Outreach    Program
EN/PRG   Enforcement     Program    (OSHA)
ERISA    Employee    Retirement     Income Security       Act
ES       Employment     Service
FBI      Federal   Bureau of Investigations
FECA     Federal   Employees'     Compensation      Act
FERS     Federal   Employees'     Retirement      System
GMA      Gary Manpower     Administration
GRTEES   Grantees
ILA      International     Longshoremen's       Association
ILGWU    International      Ladies Garment      Workers'     Union
IMIS     Integrated    Management      Information     System    (OSHA)
IRM      Information     Resources     Management
JTPA     Job Training     Partnership     Act
LMRDA    Labor-Management       Reporting    and Disclosure       Act
LSHWCA   Longshore    and Harbor Workers'         Compensation     Act
MSFW     Migrant   and Seasonal      Farm Workers       (also see DSFP)
MSHAG    Mine Safety and Health Administration               Grantees
MULTI    Multiple    DOL Agencies
OA       Office of Accounting         (OASAM)
OCD      Office   of Cost Determination
OFCMS    Office of Financial        Control    and Management
         Systems
OI       Office of Investigations
OJC      Office-of    Job Corps
OLR      Office of Labor Racketeering
OP       Office of Procurement
ORMLA    Office of Resource       Management     and Legislative
         Assessment
OSHAG    Occupational     Safety and Health Administration
         Grantees
OSPPD    Office of Strategic        Planning    and Policy
         Development
OSTM     Office of Space and Telecommunications               Management
OT AGY   Agency   other than DOL
OWCP     Office   of Workers'     Compensation      Programs
PCEH     President's     Council    on Employment      of the
         Handicapped
PCIE     President's     Council    on Integrity      and Efficiency




                           -95-
   RICO      Racketeer     Influenced    and Corrupt    Organization
              (Statute)
   SESA      State Employment       Security   Agency
   TRA       Trade Readjustment       Allowances
   UC        Unemployment      Compensation
   UI        Unemployment      Insurance
   UIS       Unemployment      Insurance    Service
   USES      United   States Employment       Service
   UTI       Diversified     Transportation      Resource
   VAN       Value-Added     Network
   WCBT      Western    Conference    Benefits    Trust
   WH        Wage and Hour Division
   WIN       Office of Work Incentive         Programs

Miscellaneous    :
    AICPA     American    Institute  of Certified   Public
              Accountants
    CARE      Controls    and Risk Evaluation    (GAO Audit
              Methodology)
    CPA       Certified    Public Accountant
    GAAP      Generally    Accepted  Accounting   Principles
    GRA       General   Risk Analysis    (CARE)
    IPA       Independent     Public Accountant




                              -96-
                         FACT    SHEETS       HIGHLIGHTS


OIG continues   the following   fact sheets which are part of a
series designed   to provide   general  information    and guidance
to DOL employees   and members    of the general   public°

Fact   Sheet   No.       Topic

OIG:   86-1              "OFFICE       OF    INSPECTOR       GENERAL"

OIG:   86-2              "REPORTING          FRAUD,    WASTE    and     ABUSE"

OIG:   86-3              "ETHICS       and    INTEGRITY       in the     WORKPLACE"

If you would     like   a copy    of    any       of these    _ighlights_        please
write to:

U.S. Department   of Labor
Office of Inspector    General
200 Constitution   Ave., N.W.,              Rmo    S-5506
Washington,   D.C. 20210




                                       -97-
       Copies of this report may be obtained
       from the U.SDepartment of Labor,
       Office of Inspector General,
       Room S-5506
       200 Constitution Avenue N.W,.
       Washington. D.C. 20210.




           DEPARTMENT OF LABOR
               OIG HOTLINE

         357-0227 (Washington Dialing Area)

(800) 424-5409 (Toll Free--outside   Washington Area)

The OIG Hotline is open 24 hours a day, 7 days a
week to receive allegations of fraud, waste, and
abuse. An operator is normally on duty on work-
clays between 8:15 AM and 4:45 PM, Eastern Time.
An answering machine handles calls at other times.
Federal employees may reach the Hotline through
FTS. The toll-free number is available for those
residing outside the Washington Dialing Area who
wish to report these allegations. Written com-
plaints may be sent to:

         OIG Hotline
         U.S. Department of Labor
         Room S1303 FPB
         200 Constitution Avenue, N.W.
         Washington, D.C. 20210
